   United States Department of Agriculture
   Office of Inspector General




U.S. Department of Agriculture, Office of the
Chief Information Officer, Fiscal Year 2012
Federal Information Security Management Act




                                             Audit Report 50501-0003-12
                                             November 2012
                                      U.S. Department of Agriculture, Office of the Chief
                                            Information Officer, Fiscal Year 2012
                                        Federal Information Security Management Act

What Were OIG’s                                     Audit Report 50501-0003-12
Objectives
Our objective was to evaluate
USDA’s overall IT security
program, including the
effectiveness of the
Department’s oversight,           As required by the Federal Information
compliance with FISMA, and
effectiveness of controls over    Security Management Act (FISMA), OIG
configuration management,         reviewed USDA’s ongoing efforts to improve
incident response, IT training,   its information technology security program
remote access management,
identity and access               and practices, as of FY 2012.
management, continuous
monitoring, contingency
planning, contractor systems,     What OIG Found
and capital planning.
                                  The Office of Inspector General (OIG) found that, although the
What OIG Reviewed                 Department of Agriculture (USDA) has made improvements in its
                                  information technology (IT) security over the last decade, many
The scope of this audit was       longstanding weaknesses remain. In fiscal years (FY) 2009, 2010,
Departmentwide and included       and 2011, OIG made 43 recommendations for improving the overall
agency IT audit work              security of USDA’s systems, but only 14 of these have been closed.
completed during FY 2012,         OIG has reported many of these remaining recommendations since
other OIG audits completed        2001, when we first detailed a material weakness in the design and
throughout the year, and the      effectiveness of USDA’s overall IT security program.
results of reviews performed
by contract auditors. In total,   In order to mitigate the continuing material weakness, we have
our FY 2012 audit work            recommended that USDA and its agencies work together to define
covered 10 agencies and staff     and accomplish a manageable number of critical objectives before
offices, operating about 124 of   proceeding to the next set of priorities. Instead, when the Department
the Department’s 251 major        received $66 million in increased funding in FY 2010 and 2011, the
systems.                          Office of the Chief Information Officer (OCIO) used the money to
                                  fund 16 separate projects, some of which did not address the
What OIG Recommends               Department’s most critical IT security concerns.
The Department should
                                  Again this year, we continue to report a material weakness in USDA’s
complete actions on the 29
                                  IT security. The Department has not (1) established a continuous
outstanding recommendations
                                  program for monitoring IT security or contractor systems; (2) ensured
from the FY 2009-2011
                                  that agencies securely configure their computers, as required;
FISMA audit reports and the
                                  (3) mandated user multi-factor authentication; (4) consistently
6 new recommendations
                                  reported security incidents; (5) implemented a risk-based framework
included in this report.
                                  for handling security issues; (6) adequately remediated weaknesses;
                                  (7) implemented adequate contingency policies and procedures; and
                                  (8) adequately planned for security costs.
USDA 	                             86
                                     Office of Inspector General 

                                      Washington, D.C. 20250 





DATE:               1 5 2012
Jeffrey D. Zients
Deputy Director for Management
The Office of Management and Budget
725 17th Street, NW
Washington, D.C. 20503

SUBJECT: 	     U.S. Department of Agriculture, Office of the Chieflnformation Officer,
               Fiscal Year 2012 Federal Information Security Management Act Report
               (Audit Report 50501-0003-12)

This report presents the results of our audits of the Department of Agriculture ' s (USDA) efforts
to improve the management and security of its information technology (IT) resources. USDA
and its agencies have taken actions to improve the security over their IT resources; however,
additional actions are still needed to establish an effective security program.




Phyllis K. Fong
Inspector General
Table of Contents

Findings and Recommendations.............................................................................1
   Recommendations.................................................................................................8
   Background .........................................................................................................10
   Objectives ............................................................................................................11
Scope and Methodology .........................................................................................12
Abbreviations .........................................................................................................14
Exhibit A: Office of Management and Budget (OMB)/Department of
Homeland Security (DHS) Reporting Requirements and U. S. Department of
Agriculture (USDA) Office of Inspector General (OIG) Position .....................16
Exhibit B: Sampling Methodology and Projections ..........................................49
U. S. Department of Agriculture, Office of the Chief Information 
Officer (OCIO), Fiscal Year 2012 Federal Information Security 
Management Act (FISMA) (Audit Report 50501-0003-12) 

Findings and Recommendations
This report constitutes the Office of Inspector General’s (OIG) independent evaluation of the
Department of Agriculture’s (USDA) Information Technology (IT) security program and
practices, as required by the Federal Information Security Management Act (FISMA) of 2002,
and is based on the questions provided by the Office of Management and Budget
(OMB)/Department of Homeland Security (DHS). These questions are designed to assess the
status of the Department’s security posture during fiscal year (FY) 2012. The OMB/DHS
framework requires OIG to audit processes, policies, and procedures that had already been
implemented and documented, and were being monitored during FY 2012. While USDA’s
planned activities might improve its security posture in the future, we could not evaluate these
initiatives as part of our FY 2012 FISMA review because they were not fully operational during
the year. However, we did note that during FY 2012, the Office of the Chief Information Officer
(OCIO) began a reorganization, appointed its first Chief Information Security Officer, and
elevated the responsibility for policies to the executive level.

USDA has made improvements in its IT security over the last decade, but many longstanding
weaknesses remain. In our FISMA audits for FYs 2009, 2010, and 2011, OIG made
43 recommendations for improving the overall security of USDA’s systems. By the end of
FY 2012, the Department had remediated and closed only 14 recommendations, leaving 29 to be
addressed. OIG has reported on many of these remaining recommendations since 2001, when
we first detailed material weaknesses in the design and effectiveness of USDA’s overall IT
security program. The findings in this report continue to be a material IT weakness for the
Department.

USDA is a large, complex organization that includes 34 separate agencies and staff offices, most
with their own IT infrastructure. Since 2009, in order to mitigate continuing material
weaknesses, we have reported that the Department should concentrate its efforts on a limited
number of priorities, instead of attempting to achieve numerous goals simultaneously in short
timeframes. We recommended that USDA and its agencies work together to define and
accomplish a limited number of critical objectives before proceeding to the next set of priorities.

When the Department received $66 million in increased funding in FYs 2010 and 2011, OCIO
used the money to fund 16 separate projects rather than funding a manageable number of
prioritized projects.1 When OCIO initially requested the increase in funding from Congress,
OCIO proposed that these funds be used to bolster three IT security areas: Network Security
Assessments, Security Tools, and the creation of an Agriculture Security Operations

1
  Audit 88401-0001-12, Audit of the Office of the Chief Information Officer’s FYs 2010 and 2011 Funding Received
for Security Enhancements (August 2012).


                                                                      AUDIT REPORT 50501-0003-12              1
Center (ASOC). However, we found that when OCIO received its funding increase for the
proposed projects, it did not use the money exclusively for the purposes outlined in its
Congressional request or for projects addressing the Department’s most critical IT security
concerns. Network Security Assessments were not completed for all agencies, security tools
were not fully implemented and those implemented were not capable of capturing all USDA
network traffic, and the ASOC is not a 24x7x365 operation.2 Rather, OCIO expended over
$6.7 million of these funds for an IT intern program, a re-engineered Certification and
Accreditation (C&A) project, and a governance and risk compliance team. While these three
programs may be beneficial in the long run, they did little to further the more pressing objective
of improving USDA’s IT security. Focusing resources on these three projects may have
detracted from other more pressing projects—such as conducting network security
assessments—that more directly addressed Congress’ and the Department’s IT security
priorities. In addition, in April 2011, Congress reduced OCIO’s appropriation as part of the
continuing resolution. This caused many of the 16 projects to be severely scaled back and project
timelines to be extended further into the future.

We continue to recommend that USDA undertake a manageable number of its highest priority
projects and show measureable progress towards the milestones for each active project. USDA’s
inability to complete projects in a timely manner continues to hinder its progress towards
improving its security posture.

The following summarizes the key matters discussed in Exhibit A of this report, which contains
OIG’s responses to the OMB/DHS questions. These questions were defined in OMB
Memorandum M-12-20, FY 2012 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management (October 2, 2012) and DHS Federal
Information Security Memorandum 12-02, FY 2012 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management (February 15, 2012).

To address the FISMA metrics, OIG reviewed systems and agencies, OIG independent
contractor audits, annual agency self-assessments, and various OIG audits throughout the year.3
Since the scope of each review and audit differed, we could not use every review or audit to
address each question.

During our review we found that USDA has not established a continuous monitoring program.
Specifically, we found that the Department has not established a policy, strategies, or plans for
continuous monitoring. Additionally, we found 25 of 254 systems where ongoing assessments



2
  In FY 2010, OCIO informed Congress that it would utilize $12.3 million to establish ASOC, which was to
“coordinate continuous 24x7x365 security operations to defend USDA information, assets, network and systems.”
The term “24x7x365” is defined as 24 hours a day, 7 days a week, and 365 days a year.
3
  Agency annual self-assessments derive from OMB Circular A-123, which defines Management’s Responsibilities
for Internal Control in Federal Agencies (December 21, 2004). The circular requires agency’s management to
annually provide assurances on internal control in Performance and Accountability Reports. During annual
assessments, agencies take measures to develop, implement, assess, and report on internal controls, and take action
on needed improvements.


2     AUDIT REPORT 50501-0003-12
of selected security controls had not been performed in FY 2012.4 As a result, agencies that own
these systems cannot ensure that controls remain effective over time, as changes occur in threats,
missions, environments of operation, and technologies. In our FY 2010 FISMA report, OIG
recommended that the Department develop policies, procedures, strategies, and implementation
plans for continuous monitoring. The Department concurred and stated it would have a policy,
procedures, strategy, and plans in place by September 30, 2011; however, the recommendation
remains open. OCIO stated that it does not have the resources currently to support this function
and is waiting for more definite Federal guidance from the National Institute of Standards and
Technology (NIST) and other working groups.

The Department has established, and is maintaining, a security configuration management
program; however, there are opportunities for improvement. Specifically, we found that the
Department has established adequate policy, and has made standard baseline configurations
available for all operating systems in use; however, agencies have not followed the policy or
baselines when configuring their servers and workstations. Specifically, one agency that OCIO
is responsible for was not scanning its devices, while another agency was only scanning
11 percent of its devices. We also found that five of five agencies reviewed did not have a
process for timely remediation of scan result deviations.5 For example, OIG ran a commercially
available vulnerability scan tool on 4,372 devices within the Department to verify that
vulnerabilities were mitigated timely. We found 6,109 high and medium vulnerabilities were
present and not corrected; 3,111 of these were over 6 months old. In the FY 2010 FISMA audit,
OIG recommended the Department ensure scanning for compliance to the baseline
configurations and for vulnerabilities is performed, as required by NIST. This recommendation
remains open; OCIO has exceeded its estimated implementation date of August 30, 2011. OCIO
is currently working on deploying a Departmentwide vulnerability scanner.

The Department has established an identity and access management program that is consistent
with FISMA requirements, OMB policy, and applicable NIST guidelines and identifies users and
network devices. The Department has developed an account and identity management policy
that is compliant with NIST standards and has adequately planned for Personal Identification
Verification (PIV) implementation for logical access, in accordance with Government standards.6
Additionally, agencies were able to identify devices, users, and non-users who access their
organization’s systems and networks. However, our testing identified opportunities for
improvement. We found that the Department and two agencies reviewed do not mandate



4
  The 254 major applications were reported in the Cyber Security Assessment and Management (CSAM) system as
of October 2, 2012 at 8:49 a.m.
5
  A vulnerability scan is the process of determining the presence of known vulnerabilities by evaluating the target
system over the network. DM 3530-001, USDA Vulnerability Scan Procedures (July 20, 2005), requires that
vulnerability scans are to be performed on a monthly basis for all existing and new networks, systems, servers, and
desktops by duly authorized users in accordance with established procedures.
6
  The Executive Branch mandate entitled, Homeland Security Presidential Directive-12 (HSPD-12), originally
issued in August 2004, requires Federal agencies to develop and deploy for all of their contract personnel and
employees a PIV credential, which is used as a standardized, interoperable card capable of being used as employee
identification and allows for both physical and information technology system access.


                                                                         AUDIT REPORT 50501-0003-12               3
multi-factor authentication, as required.7 In addition, agencies that had implemented multi-factor
authentication were using an alternate method, instead of the organization’s PIV card.8 Agencies
were reluctant to use the PIV card due to the length of time involved in receiving new or
replacement cards. We also found that agencies did not ensure that users are granted access
based on need and agencies did not ensure that accounts were terminated or deactivated once
access was no longer required. We found 363 separated users in the two agencies that still had
active accounts. One agency stated that its goal was to keep the separated employees with active
accounts to less than 3 percent. Department policy states that accounts should be disabled within
48 hours of an employee’s separation.

The Department has established an incident response and reporting program that is consistent
with FISMA requirements, OMB policy, and applicable NIST guidelines. Although USDA’s
incident handling has improved, we continue to find that the Department is not consistently
following its own policy and procedures in regard to incident response and reporting. OCIO has
implemented new procedures that it actually uses daily, but it has not updated its official
documented procedures. Our review of 75 incidents disclosed that 32 incidents were not handled
in accordance with Departmental procedures.9 Of the 32 incidents identified, USDA did not
report 31 of the incidents to United States-Computer Emergency Response Team (US-CERT)
within the required timeframe—18 of these incidents were the result of a lost or stolen device.
These incidents were not promptly reported to the Incident Handling Division (IHD). 10
Additional testing determined the Department has implemented technical capabilities to allow it
to correlate incidents across the Department; however, based on the status of the tools deployed,
as well as the methodologies utilized for deployment, it does not have the ability to correlate
incidents throughout the entire USDA network infrastructure. Based on testing of USDA’s cloud
provider’s traffic, discussions with USDA IT personnel, and our review of the cloud provider
Service Agreement and Incident Plan, we also determined that the Department is not capable of
managing risks in a virtual/cloud environment. USDA lacks the ability to track cloud traffic, the
cloud service does not have its own Data Loss Prevention (DLP) solution deployed, and the
service agreement between USDA and its cloud service provider does not include the appropriate
provisions outlining the roles and responsibilities for each party.11

7
  Dual-factor (or multi-factor) authentication is a security process in which the user provides two means of
identification, one of which is typically a physical token, such as a card, and the other of which is typically
something memorized, such as a security code. Departmental Regulation (DR) 3505-003, Access Control Policy
(August 11, 2009), requires the use of dual or multi-factor authentication.
8
  Multi-factor authentication can also utilize a hardware token or virtual token or a smart card (PIV), ("something
the user has"), or a thumbprint or iris scanner ("something the user is"). HSPD-12 requires the use of the PIV card.
9
  Departmental Standard Operating Procedure (SOP)-ASOC-001, Agriculture Security Operations Center (ASOC)
Computer Incident Response Team (CIRT), Standard Operating Procedures for Reporting Security and Personally
Identifiable Information Incidents (June 9, 2009).
10
   The US-CERT provides response support and defense against cyber-attacks for the Federal Civil Executive
Branch (.gov) and information sharing and collaboration with State and local government, industry, and
international partners. US-CERT is the operational arm of the National Cyber Security Division (NCSD) at the
DHS. NCSD was established by DHS to serve as the Federal Government’s cornerstone for cyber security
coordination and preparedness.
11
   DLP is the ability “to detect inappropriate transport of sensitive information and halt the traffic prior to leaving the
network. Examples of sensitive content are personal identifiers (e.g. credit card or Social Security numbers) or
corporate intellectual property.”


4      AUDIT REPORT 50501-0003-12
The Department does not have a Risk Management Framework (RMF) that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines.12 We continue to find that
the RMF required by NIST has not been planned and implemented. According to the
Department, this occurred due to lack of resources for OCIO’s governance team. Agency
officials are responsible for ensuring all systems meet Federal and Departmental requirements
and documenting agency compliance in the CSAM system.13 OCIO is also responsible for
ensuring that agencies are compliant with Federal and Departmental guidance and are reporting
aggregate results during the annual FISMA reporting cycle. NIST transforms the traditional
Assessment and Authorization (A&A) process into a six-step RMF process.14

The Department issued a guide that addresses parts of the six-step RMF process. The guide also
clarifies the steps necessary to complete the A&A process. This process requires agencies to
submit their systems’ A&A packages, and all supporting documents to the Department for an
in-depth review (i.e., a concurrency review). During this review, USDA ensures that the
documentation prepared to support system accreditation is complete, accurate, reliable, and
meets NIST and other mandated standards. Although the process has changed, we continue to
find:

     ·   USDA completed its in-depth document reviews and appropriately returned A&A
         packages to agencies that did not meet NIST requirements. However, we found that
         improvements are still needed. Specifically, the following A&A documentation did not
         meet NIST requirements: (1) systems were not properly categorized; (2) system security
         plan (SSP) controls were not implemented properly and did not sufficiently address each
         control; and (3) security assessment reports did not include an authorized security




12
   The RMF is a NIST publication. The publication promulgates a common framework which is intended to
improve information security, strengthen risk management, and encourage reciprocity between Federal agencies.
NIST Special Publication (SP) 800-37 Revision 1, Guide for Applying the Risk Management Framework to Federal
Information Systems (February 2010), was developed by the Joint Task Force Transformation Initiative Working
Group. OMB M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
(August 23, 2004).
13
   CSAM is a comprehensive system developed by the Department of Justice, which can facilitate achieving FISMA
compliance. CSAM provides a vehicle for the Department, agencies, system owners, and security staffs to (1)
manage their system inventory, interfaces, and related system security threats and risks; (2) enter system security
data into a single repository to ensure all system security factors are adequately addressed; (3) prepare annual system
security documents, such as security plans, risk analyses, and internal security control assessments; and (4) generate
custom and pre-defined system security status reports to effectively and efficiently monitor each agency’s security
posture and FISMA compliance. This includes agency-owned systems as well as those operated by contractors on
the agency’s behalf.
14
   A&A is the new terminology for the former C&A process mandated by OMB Circular A-130, Appendix III,
Security of Federal Automated Information Resources (November 28, 2000). The process requires that IT system
controls be documented and tested by technical personnel and that the system is granted a formal Authority to
Operate (ATO) by an agency official.


                                                                           AUDIT REPORT 50501-0003-12                5
          assessment plan.15 As a result, USDA cannot be assured that all system controls were
          documented and tested, and that systems were operating at an acceptable level of risk.

     ·    Additionally, we found an OCIO parent system in the development stage with three child
          systems that were operational with no Authority to Operate (ATO), and another six
          systems that are operational with no ATO.16 Furthermore, the Department has
          22 systems with expired ATOs, one system being CSAM, the Department’s system
          repository. As a result, these systems are operational, but without proper security
          certification, which leaves the agencies and the Department vulnerable because the
          systems have not been through proper security testing.

The Department has established a security training program that is consistent with FISMA
requirements, OMB policy, and applicable NIST guidelines. Department policy met all NIST
requirements for annual security awareness training.17 However, we identified opportunities for
improvement. Specifically, USDA lacks policy and procedures to govern specialized security
(role-based) training for personnel with significant information security responsibilities. NIST
states that before allowing individuals access to the application, all individuals should receive
specialized training focused on their responsibilities and the application rules.

The Department has established a Plan of Action and Milestones (POA&M) program that is
consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and tracks
and monitors known information security weaknesses.18 However, our testing identified some
deficiencies. For example, the Department did not have effective policies and procedures for
reporting IT security deficiencies in CSAM. We found the POA&Ms did not always include all
known security weaknesses. For example, the Department failed to create POA&Ms for the
10 OIG recommendations, based on IT security deficiencies, in the FY 2011 FISMA audit
report. These missing POA&Ms occurred because the Department security manual did not
include a policy for establishing a POA&M process for reporting IT security deficiencies and
tracking the status of remediation efforts. In addition, our review of POA&Ms within CSAM
found that agencies were not adequately detailing their plans for remediation and were not
including proper supporting documentation for effective closure. We found 176 of 1,106
FY 2012 closed POA&Ms had remediation actions that did not sufficiently address the identified

15
   The SSP is a required A&A document that provides an overview of the security requirements of the system and
describes the controls in place (or planned) for meeting those requirements. The SSP also delineates the
responsibilities and expected behavior of all individuals who access the system. NIST SP 800-18, Guide for
Developing Security Plans for Federal Information Systems (February 2006). The results of the security control
assessment, including recommendations for correcting any weaknesses or deficiencies in the controls, are
documented in the security assessment report (SAR).
16
   A parent system owns, manages, and/or controls the child system.
17
   NIST SP800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and Organizations
(August 2009).
18
   A POA&M is a tool that identifies tasks needing to be accomplished to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs and
systems. It details resources required to accomplish the elements of the plan, milestones for meeting the tasks, and
scheduled completion dates for the milestones. The goal of a POA&M should be to reduce the risk of the weakness
identified.


6        AUDIT REPORT 50501-0003-12
weakness. We also noted that the Department is not tracking and reviewing POA&Ms, as
required by the Department’s SOP.19 Finally, we found that the Department was not completing
quarterly reviews of closed POA&Ms and was not reviewing all closed audit POA&Ms, as
required.

The Department has established a remote access program that is consistent with FISMA
requirements and OMB policy. However, our testing identified that Departmental policies for
remote access and teleworking did not meet NIST requirements and the two agencies we
reviewed stated that they depended on the Departmental policies. In our FY 2010 FISMA report,
we recommended that the Department update its policy and procedures to be NIST compliant.
This recommendation is still open; OCIO has exceeded its estimated completion date of August
31, 2011. We also found, or the agencies self-reported, that three out of three agencies’ remote
access programs did not protect against unauthorized connections or subversion of authorized
connections. The agencies were not reviewing access logs to determine if unauthorized remote
access had occurred. The agencies stated that they were reviewing the logs, but were unable to
provide any documentation that the review had occurred. USDA requires multi-factor
authentication for all remote access (i.e., two means of identification).20 However, we found, or
the agencies self-reported, that four of four agencies did not have multi-factor authentication
properly implemented. As noted above, agencies are reluctant to use the PIV card, due to the
length of time involved for receiving new or replacement cards. Inadequate security controls
over remote access and teleworking could result in the unauthorized access, use, disclosure,
modification, or destruction of information.

The Department has established an enterprisewide business continuity/disaster recovery program
that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
However, our testing identified opportunities for improvement. Specifically, the Department’s
contingency policies and procedures did not meet NIST SP 800-53 requirements. We found the
Departmental template provided to the agencies for contingency planning purposes did not
contain all of NIST’s required elements. In the FY 2010 FISMA report we recommended that
OCIO update the contingency plan template to meet NIST requirements. This recommendation
is still open; OCIO has exceeded the estimated completion date of September 30, 2011. The
Department has stated that it has updated the template and it is currently in the approval process.
We also found 42 of 247 systems in CSAM that had not completed contingency plan testing or
updated documentation in CSAM for FY 2012.21 Agencies stated that this occurred because of a
lack of proper documentation or inadequate resources.

The Department does not have a program in place, a documented policy, or fully developed
procedures to oversee systems operated on its behalf by contractors or other entities, including
organization systems and services residing in the cloud. OCIO has had a policy in draft for

19
   Departmental SOP, Plan of Action and Milestones Management (June 29, 2011).
20
   Multi-factor authentication is a security process in which the user provides two means of identification, one of
which is typically a physical token, such as a card, and the other is typically something memorized, such as a
security code. In this context, the two factors involved are sometimes referred to as “‘something you have’ and
‘something you know.’”
21
   The 247 major applications were reported in CSAM as of October 2, 2012.


                                                                           AUDIT REPORT 50501-0003-12                 7
2 years and has not yet finalized it. Due to the lack of policies and procedures in the
Department, we found one system was not included in the inventory of contractor systems. In
addition, FISMA requires USDA to maintain an inventory of its information systems that, among
other information, identifies interfaces between other agency systems. Specifically, we
found eight contractor systems with expired ATOs, four contractor systems with missing
interconnection agreements, and five contractor systems with missing authorizing signatures.
Additionally, OIG found one vendor-controlled (cloud) system that was in production for
15 months before NIST-required documentation was in CSAM.

Our testing of USDA’s capital planning process determined the Department has established and
maintains a capital planning and investment program for information security. However, testing
determined that USDA does not maintain sufficient documentation to support its annual IT
investment budgetary requests. The agencies stated that they were unaware of the need to retain
adequate supporting documentation used for the budgeting process.

The below recommendations are new for FY 2012. Because 29 recommendations from
FY 2009, FY 2010, and FY 2011 remain without final closure, we have not made any repeat
recommendations. If the plans initiated to close out the FY 2009, 2010, and 2011
recommendations are no longer achievable, due to budget cuts or other reasons, then OCIO
needs to update those closure plans and request a change in management decision, in accordance
with Departmental guidance.


Recommendations
1. Modify the service agreement between the Department and the e-mail cloud service provider
to incorporate appropriate detail, outlining the roles and responsibilities of each party pertaining
to incident response and reporting. Additionally, the Department should work with the cloud
provider to gain visibility into USDA’s e-mail system (i.e., so that the Department can
view/monitor network traffic in the cloud system).

2. The Department should deploy adequate/appropriate technology on the necessary routers to
capture all network traffic.

3. The Department should finalize the deployment of its security tools in order to correlate
incidents across the network.

4. The Department should verify that all systems have the proper authority to operate prior to
implementation.

5. Develop and implement an effective process for making sure interface connections are
documented, and that Interconnections Agreements accurately reflect all connections to the
systems. The Department needs to review interfaces during the annual testing processes.




8    AUDIT REPORT 50501-0003-12
6. Incorporate a review of line items in the annual Capital Planning cycle to verify that
information security resources requested by the agencies are accompanied by required
supporting documentation.




                                                              AUDIT REPORT 50501-0003-12    9
Background & Objectives
Background
Improving the overall management and security of IT resources needs to be a top priority for
USDA. Technology enhances users’ ability to share information instantaneously among
computers and networks, but it also makes organizations’ networks and IT resources vulnerable
to malicious activity and exploitation by internal and external sources. Insiders with malicious
intent, recreational and institutional hackers, and attacks by foreign intelligence organizations are
a few of the threats to the Department’s critical systems and data.

On December 17, 2002, the President signed into law the e-Government Act (Public Law
107-347), which includes Title III, FISMA. FISMA permanently reauthorized the framework
established by the Government Information Security Reform Act (GISRA) of 2000, which
expired in November 2002. FISMA continued the annual review and reporting requirements
introduced in GISRA, and also included new provisions that further strengthened the security of
Federal Government data and information systems, such as requiring the development of
minimum control standards for agencies’ systems. NIST was tasked to work with agencies in
developing those standards as part of its statutory role in providing technical guidance to Federal
agencies.

FISMA supplements the information security requirements established in the Computer Security
Act of 1987, the Paperwork Reduction Act of 1995, and the Clinger-Cohen Act of 1996. FISMA
consolidated these separate requirements and guidance into an overall framework for managing
information security. It established new annual reviews, independent evaluations, and reporting
requirements to ensure agencies implemented FISMA. It also established how OMB and
Congress would oversee IT security.

FISMA assigned specific responsibilities to OMB, agency heads, Chief Information Officers
(CIO), and Inspectors General (IG). In OMB Memorandum M-10-28, OMB transferred portions
of its responsibilities to DHS. The memorandum clarified that OMB is responsible for
establishing and overseeing policies, standards, and guidelines for information security. It
further stated that DHS exercises primary responsibility within the executive branch for the
operational aspects of Federal agency cybersecurity with respect to the Federal information
systems that fall within FISMA. DHS was given broad implementation responsibilities to
include overseeing agencies’ compliance with FISMA and developing analyses for OMB to
assist in the development of its annual FISMA report.

Each agency must establish a risk-based information security program that ensures information
security is practiced throughout the lifecycle of each agency’s systems. Specifically, the
agency’s CIO is required to oversee the program, which must include:

     ·   Periodic risk assessments that consider internal and external threats to the integrity,
         confidentiality, and availability of systems and data supporting critical operations and
         assets;


10       AUDIT REPORT 50501-0003-12
   ·   Development and implementation of risk-based, cost-effective policies and procedures to
       provide security protections for the agency’s information;
   ·   Training that covers security responsibilities for information security personnel and
       security awareness for agency personnel;
   ·   Periodic management testing and evaluation of the effectiveness of security policies,
       procedures, controls, and techniques;
   ·   Processes for identifying and remediating significant security deficiencies;
   ·   Procedures for detecting, reporting, and responding to security incidents; and
   ·   Annual program reviews by agency officials.

In addition to the responsibilities listed above, FISMA requires each agency to have an annual
independent evaluation of its information security program and practices, including control
testing and a compliance assessment. The evaluations are to be performed by the agency’s IG or
an independent evaluator, and the results of these evaluations are to be reported to OMB.

Objectives
The objective of this audit was to evaluate the status of USDA’s overall IT security program by
evaluating the:

   ·   Effectiveness of the Department’s oversight of agencies’ IT security programs and
       compliance with FISMA;
   ·   Agencies’ systems of internal controls over IT assets;
   ·   Department’s progress in establishing a Departmentwide security program, which
       includes effective assessment and authorizations;
   ·   Agencies’ and the Department’s POA&M consolidation and reporting process; and
   ·   Effectiveness of controls over configuration management, incident response, IT training,
       remote access management, identity and access management, continuous monitoring,
       contingency planning, contractor systems, and capital planning.




                                                           AUDIT REPORT 50501-0003-12        11
Scope and Methodology
The scope of our review was Departmentwide and included agency IT audit work completed
during FY 2012. We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Fieldwork for this audit was performed remotely at USDA locations throughout the continental
United States from May 2012 through October 2012. In addition, this report incorporates audits
done throughout the year by OIG. Testing was conducted at offices in the Washington, D.C. and
Kansas City, Missouri, areas. Additionally, we included the results of IT control testing and
compliance with laws and regulations performed by contract auditors at seven additional USDA
agencies. In total, our FY 2012 audit work covered 10 agencies and staff offices:

     ·   Agricultural Research Service (ARS),
     ·   Foreign Agricultural Service (FAS),
     ·   Federal Crop Insurance Corporation (FCIC),
     ·   Forest Service (FS),
     ·   Farm Service Agency (FSA),
     ·   International Technology Services (ITS),
     ·   National Information Technology Center (NITC),
     ·   Natural Resources Conservation Service (NRCS),
     ·   Office of the Chief Financial Officer (OCFO), and
     ·   Office of the Chief Information Officer (OCIO).

These agencies and staff offices operate approximately 124 of the Department’s 251 general
support and major application systems.22

To accomplish our audit objectives, we performed the following procedures:

     ·   Consolidated the results and issues from our prior IT security audit work and the work
         contractors performed on our behalf. Contractor audit work consisted primarily of audit
         procedures found in the U.S. Government Accountability Office’s (GAO) Financial
         Information System Control Audit Manual;
     ·   Evaluated the Department’s progress in implementing recommendations to correct
         material weaknesses identified in prior OIG and GAO audit reports;
     ·   Gathered the necessary information to address the specific reporting requirements
         outlined in OMB Memorandum M-12-20, FY 2012 Reporting Instructions for the


22
  The 251 major applications were reported in CSAM as of October 2, 2012 at 6:26 a.m. The total number of
systems can vary based upon the date/time the report is run. New systems can be added and old systems retired.
The total universe of systems in this report varies because tests were done at different times throughout FY 2012.


12       AUDIT REPORT 50501-0003-12
       Federal Information Security Management Act and Agency Privacy Management
       (October 2, 2012);
   ·   Performed detailed testing specific to FISMA requirements at selected agencies, as
       detailed in this report; and
   ·   Performed statistical sampling on testing, where appropriate. Additional sample analysis
       information is presented in Exhibit B.

Testing results were compared against NIST controls, OMB/DHS guidance, e-Government Act
requirements, and Departmental policies and procedures for compliance.




                                                          AUDIT REPORT 50501-0003-12        13
Abbreviations
A&A ............................ Assessment and Authorization
ARS ............................. Agricultural Research Service
ASCO .......................... Agriculture Security Operations Center
ATO ............................ Authority to Operate
BIA .............................. Business Impact Analysis
C&A ............................ Certification and Accreditation
CIO .............................. Chief Information Officer
CIRT ........................... Computer Incident Response Team
CISO ........................... Chief Information Security Office
CPIC ............................ Capital Planning and Investment Control
CPD…………………..Capital Planning Division
CPO ............................. Cyber Policy Oversight
CSAM ......................... Cyber Security Assessment and Management
DHS............................. Department of Homeland Security
DLP ............................. Data Loss Prevention
DM .............................. Departmental Manual
DoD ............................. Department of Defense
DR ............................... Departmental Regulation
FAS ............................. Foreign Agricultural Service
FCIC ............................ Federal Crop Insurance Corporation
FDCC .......................... Federal Desktop Core Configurations
FISMA ........................ Federal Information Security Management Act
FS ................................ Forest Service
FSA ............................. Farm Service Agency
FY ............................... Fiscal Year
GAO ............................ Government Accountability Office
GISRA......................... Government Information Security Reform Act
HSPD-12 ..................... Homeland Security Presidential Directive-12
IG ................................ Inspector General
IHD ............................. Incident Handling Division
IP ................................. Internet Protocol

14       AUDIT REPORT 50501-0003-12
IT ................................. Information Technology
ITS............................... International Technology Services
MOU ........................... Memorandum of Understanding
NCSD .......................... National Cyber Security Division
NIST ............................ National Institute of Standards and Technology
NITC ........................... National Information Technology Center
NRCS .......................... National Resources Conservation Service
OCFO .......................... Office of the Chief Financial Officer
OCIO ........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PII................................ Personally Identifiable Information
PIV .............................. Personal Identification Verification
POA&M ...................... Plan of Action and Milestone
RMF ............................ Risk Management Framework
SAP ............................. Security Assessment Plan
SAR ............................. Security Assessment Report
SOP ............................. Standard Operating Procedure
SP ................................ Special Publication
SSP .............................. System Security Plan
TT&E .......................... Test, Training, and Exercise
US-CERT .................... US-Computer Emergency Response Team
USDA.......................... Department of Agriculture




                                                                          AUDIT REPORT 50501-0003-12   15
Exhibit A: Office of Management and Budget (OMB)/Department
of Homeland Security (DHS) Reporting Requirements and U. S.
Department of Agriculture (USDA) Office of Inspector General
(OIG) Position
OMB/DHS’ questions are set apart using boldface type in each section. OIG checks items on
OMB/DHS’ list, boldfacing and underlining the relevant text. We answer direct questions with
either Yes or No.

The universe of systems and agencies reviewed varied during each audit or review in this report.
As part of FISMA, OIG reviewed systems and agencies, audit work conducted for OIG by
independent public accounting firm contractors, annual agency self-assessments, and various
OIG audits conducted throughout the year.23 Since the scope of each review and audit differed,
we could not use every review or audit to answer each question.

The audit team reviewed all 11 FISMA areas. We incorporated statistical sampling for four
FISMA areas. Each of the four areas was represented by the relevant universe associated with it.
The specific sample designs are summarized in Exhibit B.


S1: Continuous Monitoring Management

1.1 Has the Organization established an enterprise-wide continuous monitoring program
that assesses the security state of information systems that is consistent with FISMA
requirements, OMB policy, and applicable NIST guidelines?- No.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

1.1.1 Documented policies and procedures for continuous monitoring
(NIST 800-53: CA-7)? - No

The Department’s continuous monitoring policies and procedures were still in draft as of
September 30, 2012. In the FY 2009 and 2010 FISMA report, OIG recommended that the
Department develop policies, procedures, strategies, and implementation plans for continuous
monitoring. The recommendation is still open and has exceeded the estimated completion date
of September 30, 2011. OCIO stated that they do not have the resources currently to support this
function and are waiting for more finite Federal guidance from NIST and other working groups.


23
  Agency annual self-assessments are a result of OMB Circular A-123, Management’s Responsibility for Internal
Control (December 21, 2004), which defines management’s responsibility for internal controls in Federal agencies.
The Circular requires agencies’ management to annually provide assurances on internal control in its Performance
and Accountability Report. During the annual assessment, agencies take measures to develop, implement, assess,
and report on internal control, and to take action on needed improvements.


16      AUDIT REPORT 50501-0003-12
In addition, we identified that two out of two agencies reviewed did not have an agency policy in
place or the policy was missing NIST-required criteria.24

1.1.2 Documented strategy and plans for continuous monitoring
(NIST 800-37 Rev 1, Appendix G)? - No

The Department did not provide a strategy or plan for developing an entity-wide continuous
monitoring plan. OIG was provided a draft Continuous Monitoring Concept PowerPoint
presentation which has yet to be implemented. As noted above, the Department is over 1 year
past the date these plans and strategies were due to be implemented. Without an entity-wide
continuous monitoring program, the Department cannot effectively detect compliance and
determine if the complete set of planned, required, and deployed security controls for an
information system continue to be effective over time, in light of changes that occur on an
ongoing basis.

1.1.3 Ongoing assessments of security controls (system- specific, hybrid, and common)
that have been performed based on the approved continuous monitoring plans
(NIST 800-53, NIST 800-53A)? - No

We identified 24 of 254 systems where ongoing assessments of selected security controls had not
been performed in FY 2012.25 The agencies that own these systems cannot ensure that controls
remain effective over time, as changes occur in threats, missions, environments of operation, and
technologies.

In the FY 2010 FISMA report, we recommended that the Department develop ongoing
assessments of selected security controls that agencies have performed, based on the approved
continuous monitoring plans. OCIO has exceeded its estimated completion date of September
30, 2011.

1.1.4 Provides authorizing officials and other key system officials with security status
reports covering updates to security plans and security assessment reports, as well as
POA&M additions and updates with the frequency defined in the strategy and/or plans
(NIST 800-53, NIST 800-53A)? - No

We found that one of two agencies was unable to verify that the required information was
provided to the authorizing official or other key system officials.

In the FY 2010 FISMA report, we recommended that the Department ensure system authorizing
officials and other key system officials are provided with security status reports covering updates
to security plans and security assessment reports, as well as Plan of Action and Milestones
(POA&M) additions. OCIO has exceeded its estimated completion date of September 30, 2011.


24
   NIST SP800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and Organizations
(August 2009). CA-7 requires the organization to establish a continuous monitoring strategy and program.
25
   The 254 major applications were reported in CSAM as of October 2, 2012 at 8:49 a.m.


                                                                  AUDIT REPORT 50501-0003-12               17
1.2   Please provide any additional information on the effectiveness of the Organization’s 
Continuous Monitoring Management Program that was not noted in the questions above.

No additional information to provide.


S2: Configuration Management

2.1 Has the Organization established a security configuration management program that
is consistent with FISMA requirements, OMB policy, and applicable NIST
guidelines?- Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

2.1.1 Documented policies and procedures for configuration management? - Yes

No exception noted. NIST requires that the organization develop formal documented procedures
to facilitate the implementation of the configuration management policy and associated
configuration management controls.26 OIG found the configuration management program
includes adequate documented policies and procedures at both the Department and agency level.

2.1.2 Standard baseline configurations defined? - Yes

No exception noted. The Department follows the NIST configuration baseline guides. 27

2.1.3 Assessing for compliance with baseline configurations? - No

NIST requires the organization to develop, document, and maintain a current baseline
configuration of the information system. We found that 4 of 13 agencies reviewed did not
configure servers in accordance with the NIST requirements. Specifically, we found that over
50 percent of the settings on the Windows servers at two agencies were not compliant with the
baseline guides provided by NIST. In addition, two other agencies self-reported a deficiency
with baseline configurations.

In the FY 2009 FISMA report, we recommended that the Department implement effective
policies and procedures to ensure agencies use required NIST and Departmental configuration
checklists and have documented the reasons for those settings not being implemented. OCIO has
exceeded its estimated completion date of July 30, 2011. Also, in the FY 2010 FISMA report,
we recommended that the Department ensure documented configuration management procedures
are developed and consistently implemented across the Department, including baseline

26
   NIST SP 800-53, control CM-1 requires that a formal documented configuration management policy and
procedures be developed.
27
   NIST SP 800-70 Rev. 2, National Checklist Program for IT Products—Guidelines for Checklist Users and
Developers Recommendations (February 2011).


18      AUDIT REPORT 50501-0003-12
configurations for all approved software and hardware. Any changes to the baseline guides
should be documented and approved. OCIO has exceeded its estimated completion date of
September 30, 2011.

2.1.4 Process for timely, as specified in Organization policy or standards, remediation of
scan result deviations CyberScope - FISMA Reporting? - No

We found that four of four agencies reviewed did not have a process for timely remediation of
scan result deviations.28 Specifically, OIG ran a commercially available vulnerability scan tool
on 4,372 devices within the Department to verify that vulnerabilities were managed timely. We
found 6,109 high and medium vulnerabilities were present and not corrected; 3,111 of these were
over 6 months old. As a result, networks and devices within the Department are at increased risk
of compromise.

2.1.5 For Windows-based components, FDCC/USGCB secure configuration settings
fully implemented and any deviations from FDCC/USGCB baseline settings fully
documented? - No

NIST requires the organization to establish and document mandatory security configuration
settings for information technology products employed within the information system. One such
requirement is the Federal Desktop Core Configurations (FDCC) secure configurations for user
workstations and laptops.29 We found that two of three agencies reviewed did not fully
implement FDCC secure configuration settings and document all deviations from baseline
settings. Specifically, in the agencies tested we found a total of 1,175,172 FDCC settings that
should have been implemented; however, 455,720 (38 percent) of the settings were not in
compliance with FDCC standards. In one agency this was caused by moving to another
environment that took much longer than anticipated. These missing standards make the laptops
and workstations less secure and users more susceptible to compromise.

In the FY 2009 FISMA report, OIG recommended the Department complete the FDCC
deployment and ensure all FDCC deviations are documented by the agencies. Final action has
been achieved; however, this problem continues to be an issue.

2.1.6 Documented proposed or actual changes to hardware and software
configurations? - No

NIST requires the organization to document approve configuration-controlled changes to the
system. We found 6 of 13 agencies reviewed had changes to hardware and software that were


28
   A vulnerability scan is the process of determining the presence of known vulnerabilities by evaluating the target
system over the network. DM 3530-001, USDA Vulnerability Scan Procedures (July 20, 2005), requires that
vulnerability scans are to be performed on a monthly basis for all existing and new networks, systems, servers, and
desktops by duly authorized users in accordance with established procedures.
29
   OMB Memorandum 07-11, Implementation of Commonly Accepted Security Configurations for Windows
Operating Systems (March 22, 2007), requires agencies to adopt the security configurations developed by NIST, the
Department of Defense (DoD), and the Department of Homeland Security (DHS).


                                                                       AUDIT REPORT 50501-0003-12                19
not documented as required. Specifically in one agency, we found 11 of 18 change records had
no documented approvals as required. As a result, malicious changes could be implemented in
production systems without the knowledge of the approving official.

2.1.7 Process for timely and secure installation of software patches? - No

NIST requires the organization to identify and correct system flaws (known as vendor patches)
and incorporate flaw remediation into the organizational configuration management
process.30 We found four of four agencies reviewed did not have an implemented process for
timely and secure installation of software patches. Specifically, OIG found 397 high and
medium vulnerabilities where the corrective action was to apply a vendor issued patch of which
246 were available for at least 6 months and the agency had not installed it.

In the FY 2010 FISMA report, OIG recommended that the Department develop automated
procedures for the timely and secure installation of software patches. The recommendation is
still open and the OCIO has exceeded its estimated completion date of June 15, 2011.

2.1.8 Software assessing (scanning) capabilities are fully implemented
(NIST 800-53: RA-5, SI-2)? - No

Department Manual 3530-001 requires all agencies to establish and implement procedures for
accomplishing vulnerability scanning of all networks, systems, servers, and desktops for which
they have a responsibility. This includes performing monthly scans and remediating
vulnerabilities found as a result of the scans. We found two of two agencies reviewed did not
implement scanning capabilities as required. Specifically, one agency was not scanning devices
at all, and had not for over 9 months. Another agency only scanned 823 of 7,503 devices
monthly. The agency only scanned 11 percent of its devices but reported 100 percent
compliance to the Department.

In the FY 2009 FISMA report, OIG recommended that the Department develop and implement
an effective monthly FISMA scorecard to be used for agency reporting and Departmental
oversight. We also recommended that USDA ensure that the scorecard includes verifiable items
such as vulnerability scanning, patching, anti-virus reports, and training. Final action has been
achieved, but this problem continues to be an issue. In the FY 2010 FISMA report, OIG
recommended that the Department ensure scanning for compliance to the baseline configurations
and for vulnerabilities is performed as required by NIST. This recommendation is open and has
exceeded the estimated completion date of September 30, 2011. OCIO is currently working on
deploying a Departmentwide vulnerability scanner. In addition, OIG recommended in the
FY 2011 FISMA report that the Department develop monitoring procedures to verify that
monthly vulnerability scans are completed as required by Departmental guidance. No
management decision has been reached for this recommendation.


30
  A patch is a small piece of software that is used to correct a problem with a software program or an operating
system. Most major software companies will periodically release patches, usually downloadable from the internet,
that correct very specific problems in their software programs.


20      AUDIT REPORT 50501-0003-12
2.1.9 Configuration-related vulnerabilities, including scan findings, have been remediated
in a timely manner, as specified in Organization policy or standards.
(NIST 800-53: CM-4, CM-6, RA-5, SI-2)? - No

NIST requires Federal agencies to establish and document mandatory configuration settings for
information technology products employed within the information system, and implement the
recommended configuration settings. OIG found that 5 of 17 agencies reviewed did not
remediate configuration vulnerabilities. Specifically, we found 2,799 configuration-related
vulnerabilities on 195 network devices.31 In addition, we found 1,055 configuration-related
vulnerabilities on 6 websites maintained by the agencies.32 Consequently, the devices and
websites are at risk for compromise.

In the FY 2011 FISMA report, OIG recommended the Department develop monitoring
procedures to verify that all Department and agency network devices are configured in
accordance with NIST. Management decision has not been reached.

2.1.10 Patch management process is fully developed, as specified in Organization policy or
standards. (NIST 800-53: CM -3, SI-2)? - No

NIST requires Federal agencies to incorporate vendor software flaw remediation (patches) into
the organizational configuration management process. We found that four of four agencies
reviewed did not have a fully developed patch management process. Specifically, as noted in
our response to question 2.1.7, we found 246 high and medium vulnerabilities were present on
USDA devices where the patches were available for 6 months or more but the agencies had not
applied them. As a result, USDA devices are susceptible to compromise.

2.2   Please provide any additional information on the effectiveness of the Organization’s 
Configuration Management Program that was not noted in the questions above.

No additional information to provide.


S3: Identity and Access Management

3.1 Has the Organization established an identity and access management program that is
consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and
identifies users and network devices?- Yes.

Besides the improvement opportunities that have been identified by the OIG, does the
program include the following attributes:


31
   We utilized a commercially available software package designed to test security and configuration policies to
analyze agency network devices for compliance with FISMA requirements.
32
   We utilized a commercially available software package designed to thoroughly analyze Web applications and
Web services (websites) for security vulnerabilities.


                                                                        AUDIT REPORT 50501-0003-12                 21
3.1.1 Documented policies and procedures for account and identity management
(NIST 800-53: AC-1)? - Yes

No exception noted. We found that the Department's current policy is substantially compliant
and agencies’ procedures met NIST SP 800-53.

3.1.2 Identifies all users, including federal employees, contractors, and others who access
Organization systems (NIST 800-53, AC-2)? - Yes

No exception noted. We found that two out of the two agencies reviewed identified all users,
including Federal employees, contractors, and others who access organization systems.

3.1.3 Identifies when special access requirements (e.g., multi- factor authentication) are
necessary? - No

Currently, the Department requires agencies to implement multi-factor authentication for all
forms of remote access to agency information systems.33 However, we found two out of two
agencies did not have multi-factor authentication properly implemented.34 One agency stated it
was not using the Departmental solution because of the length of time it currently takes for field
users to receive their credentials.

3.1.4 If multi-factor authentication is in use, it is linked to the Organization’s PIV
program where appropriate (NIST 800-53, IA-2)? - No

We found that two of two agencies reviewed did not use multi-factor authentication linked to the
Department’s Personal Identification Verification (PIV) credentials program.35 In addition, a
contractor review found an additional agency that did not use multi-factor authentication that
was linked to the PIV credentials program. One agency stated that it was not using it because
many of its rural employees had difficulty receiving their PIV cards due to the employees’
location. Inadequate security controls over special access requirements could result in the
unauthorized access, use, disclosure, modification, or destruction of information.




33
   Departmental Regulation (DR) 3505-003, Access Control Policy (August 11, 2009). Multi-factor authentication is
a security process in which the user provides two means of identification, one of which is typically a physical token,
such as a card, and the other is typically something memorized, such as a security code. In this context, the two
factors involved are sometimes spoken of as “something you have” and “something you know.”
34
   Dual-factor authentication is a security process in which the user provides two means of identification, one of
which is typically a physical token, such as a card, and the other of which is typically something memorized, such as
a security code.
35
   The Executive Branch mandate entitled “Homeland Security Presidential Directive 12” (HSPD-12), originally
issued in August 2004, requires Federal agencies to develop and deploy for all of their contract personnel and
employees a PIV credential which is used as a standardized, interoperable card capable of being used as employee
identification and allows for both physical and information technology system access.


22      AUDIT REPORT 50501-0003-12
3.1.5 Organization has adequately planned for implementation of PIV for logical access in
accordance with government policies (HSPD 12, FIPS 201, OMB M-05-24, OMB M-07-06,
OMB M-08-01, OMB M-11-11)? - Yes

No exception noted. OIG found that all agencies reviewed were able to provide Federal and
Contractor employee HSPD-12 information regarding distribution of PIV cards.

3.1.6 Ensures that the users are granted access based on needs and separation of duties
principles? - No

OIG found that 2 of 17 agencies reviewed did not ensure that users were granted access based on
need and separation of duties principles.36 The agencies did not have automated mechanisms to
enforce privileges or perform periodic reviews of user privileges and could not verify if account
privilege reviews were performed by an authorized individual and followup occurred when
necessary. As a result, accounts have excessive privileges which may result in the unauthorized
access, misuse, disclosure, disruption, modification, or destruction of information.

3.1.7 Identifies devices with IP addresses that are attached to the network and
distinguishes these devices from users (For example: IP phones, faxes, printers are
examples of devices attached to the network that are distinguishable from desktops, laptops
or servers that have user accounts)? - Yes

No exception noted. OIG found that two of two agencies reviewed were able to provide
evidence that their Identity and Access Management program identified devices with Internet
Protocol addresses that are attached to the network.

3.1.8 Identifies all User and Non-User Accounts (refers to user accounts that are on a
system. Examples of non-user accounts are accounts such as an IP that is set up for
printing. Data user accounts are created to pull generic information from a database or a
guest/anonymous account for generic login purposes that are not associated with a single
user or a specific group of users)? - Yes

No exception noted. OIG found that all agencies reviewed were able to identify user and non-
user accounts.

3.1.9 Ensures that accounts are terminated or deactivated once access is no longer
required? - No

OIG found that 5 of 16 agencies did not ensure that accounts were terminated or deactivated
once access was no longer required. We found 363 separated users in two agencies that still had
active accounts. One agency stated that its goal was to keep the separated employees with active
accounts to less than 3 percent. Department policy states that accounts should be disabled within

36
  Separation of duties is the concept of having more than one person required to complete a task, which helps
prevent fraud and error. The concept of least privilege states that employees must be able to access only the
information and resources that are necessary to complete their legitimate role or function.


                                                                       AUDIT REPORT 50501-0003-12               23
48 hours of an employee’s separation. The agencies are not properly terminating users when
access is no longer required, which may result in the unauthorized access, misuse, disclosure,
disruption, modification, or destruction of information.

3.1.10 Identifies and controls use of shared accounts? - Yes

No exception noted. OIG determined that all agencies reviewed, identified, and controlled
shared accounts.

3.2 Please provide any additional information on the effectiveness of the Organization’s 
Identity and Access Management Program that was not noted in the questions above.

No additional information to provide.


S4: Incident Response and Reporting

4.1 Has the Organization established an incident response and reporting program that is
consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?- Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

4.1.1 Documented policies and procedures for detecting, responding to and reporting
incidents (NIST 800-53: IR-1)? - No

USDA Incident Handling policies and procedures were unchanged from our findings during the
FY 2011 FISMA review. During FISMA 2011, we found that the Department policy met all of
the NIST requirements.37 However, our review in FY 2011 identified that the day-to-day
procedures were not accurately reflected in the documented Agriculture Security Operations
Center (ASOC) Standard Operating Procedure (SOP).38 As an example, we determined the SOP
did not include the updated versions of incident checklists utilized by the incident response team.
FY 2012 testing found no changes in the procedures. In addition, we determined that three of
the three agencies tested for FISMA or during other audits did not have procedures that were
fully developed or sufficiently detailed.

In the FY 2011 FISMA report, OIG recommended that the Department update its incident
handling procedures to reflect current practice. No management decision has been reached.




37
  NIST SP 800-61, Computer Security Incident Handling Guide (March 2008).
38
  Departmental SOP-ASOC-001, Agriculture Security Operations Center (ASOC) Computer Incident Response
Team (CIRT), SOP for Reporting Security and Personally Identifiable Information Incidents (June 9, 2009).


24      AUDIT REPORT 50501-0003-12
4.1.2 Comprehensive analysis, validation and documentation of incidents? - No

Our review of incidents found that 32 of 75 were not handled in accordance with Departmental
procedures.39 Based on our overall sample results we estimate that 351 incidents (42.6 percent
of the universe) were not handled in accordance with Departmental procedures.40 Agencies are
required to submit documentation to the Department, detailing the steps taken to close out the
incident. Specific documents and completed forms are required to be returned to the
Department; however, we found that 4 of the 32 incidents had either incomplete incident
documentation or did not include the required documentation outlined in the procedures. For
example, two of the checklists did not complete the Personally Identifiable Information (PII)
checklist required.41

4.1.3 When applicable, reports to US-CERT within established timeframes
(NIST 800-53, 800-61, and OMB M-07-16, M-06-19)? - No

US-CERT requires USDA to notify them of incidents within specified timeframes, based on the
category of the incident.42 We reviewed a statistical sample of incidents that disclosed USDA
had not reported 31 of 75 incidents to US-CERT within the required timeframe, 18 of which
were the result of a lost or stolen device that was not promptly reported to OCIO’s Incident
Handling Division (IHD).43 Based on our overall sample results, we estimate that 340 incidents
(41.3 percent of the universe), were not reported to US-CERT as required.44 For example,
US-CERT requires that lost or stolen equipment incidents be reported within one hour; however,
we found that an agency did not report a lost equipment incident to IHD (to forward to
US-CERT) for 213 days.45

39
   We based our sample size on a 30 percent error rate and a desired absolute precision of +/-10 percent, at the
95 percent confidence level. With these assumptions, we calculated a sample size of 75 incidents for review and
selected them by choosing a simple random sample. Additional sample design information is presented in
Exhibit B.
40
   We are 95 percent confident that between 261 (42.6 percent of the universe) and 441 (53.6 percent
of the universe) FY12 incidents were not handled in accordance with departmental procedures. Additional sample
design information is presented in Exhibit B.
41
   PII is defined as any information which can be used to distinguish or trace an individual’s identity, such as name,
social security number, date and place of birth, mother’s maiden name, biometric records, etc., including any other
personal information that is linked or linkable to the individual.
42
   The US-CERT provides response support and defense against cyber-attacks for the Federal Civil Executive
Branch (.gov) and information sharing and collaboration with State and local government, industry, and
international partners. US-CERT is the operational arm of the National Cyber Security Division (NCSD) at the
Department of Homeland Security (DHS). NCSD was established by DHS to serve as the Federal Government’s
cornerstone for cyber security coordination and preparedness.
43
   We based our sample size on a 30 percent error rate and desired absolute precision of +/-10 percent, at the
95 percent confidence level. With these assumptions, we calculated a sample size of 75 incidents for review and
selected them by choosing a simple random sample. Additional sample design information is presented in
Exhibit B.
44
   We are 95 percent confident that between 251 (30.5 percent of the universe) and 430 (52.2 percent of the
universe) incidents in FY12 were not reported to US-CERT as required. Additional sample design information is
presented in Exhibit B.
45
   Lost equipment is defined as a lost or stolen laptop, smartphone, or other electronic device that is issued to USDA
employees for performance of the employees’ day-to-day responsibilities.


                                                                         AUDIT REPORT 50501-0003-12               25
4.1.4 When applicable, reports to law enforcement within established timeframes
(SP 800-86)? - Yes

No exception noted. We determined all incidents were properly reported to law enforcement
officials when applicable.

4.1.5 Responds to and resolves incidents in a timely manner, as specified in Organization
policy or standards, to minimize further damage. (NIST 800-53, 800-61, and
OMB M-07-16, M-06-19)? - Yes

No substantial exception noted. The Departmental procedures require that if an incident is not
closed after 30 days, the agency is required to open a POA&M.46 OIG found that 1 of the
75 incidents was not resolved in a timely manner, and a POA&M was not created as required,
when the incident remained open for more than 30 days. We consider this question to be
substantially met.

4.1.6 Is capable of tracking and managing risks in a virtual/cloud environment, if
applicable? - No

We conducted testing to determine if USDA is capable of tracking and managing risks in a
virtual/cloud environment. Based on the test traffic we sent to and received from the cloud
provider, discussions with USDA IT personnel, and our review of the cloud provider’s Service
Agreement and Incident Plan, we determined that USDA is not capable of managing risks in a
virtual/cloud environment.47 USDA lacks the ability to track cloud traffic, the cloud e-mail
solution does not have its own Data Loss Prevention (DLP) solution deployed, and the service
agreement between the USDA and its cloud service provider does not include the appropriate
detail outlining the roles and responsibilities for each party.48 A new Federal initiative requires
agencies and cloud service providers to stipulate any specific incident reporting requirements,
including who and how to notify the agency.49 USDA’s current cloud service providers are
required to become compliant by June 2014.



46
   A POA&M is a tool that identifies tasks needing to be accomplished to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs and
systems. It details resources required to accomplish the elements of the plan, milestones in meeting the task, and
scheduled completion dates for the milestones. The goal of a POA&M should be to reduce the risk of the weakness
identified.
47
   The test traffic generated was an email message that was sent from a USDA cloud based email account to a test
Google email account (Gmail). The e-mail message contained an unencrypted spreadsheet that included 50
fictitious names, fictitious social security numbers, and fictitious credit card numbers. When the e-mail was sent, it
was sent to the Cloud Service Provider through the USDA network and subsequently received by the Gmail account
from the Cloud Service Provider.
48
   DLP is the ability “to detect inappropriate transport of sensitive information. Examples of sensitive content are
personal identifiers (e.g. credit card or Social Security numbers) or corporate intellectual property.”
49
   The FedRAMP program supports the U.S. Government’s objective to enable U.S. Federal agencies to use
managed service providers that enable cloud computing capabilities. The program is designed to comply with the
Federal Information Security Management Act of 2002 (FISMA).


26      AUDIT REPORT 50501-0003-12
In the FISMA 2011 report, OIG recommended the Department deploy adequate resources to
monitor and configure new security tools and then adequately report and close the related incidents.
This recommendation has not reached management decision.

4.1.7 Is capable of correlating incidents? - No

Based on our testing, we determined that, although the Department has the capability to correlate
incidents for the incident response and reporting within USDA, the current security tools do not
see nor capture all network traffic. Additionally, the Department’s correlation tool was not fully
configured and capable of correlating incidents during FY 2012. As noted in an audit during
FY 2012, USDA purchased security tools in FY 2010 and 2011 without proper planning and
configuration.50

4.1.8 There is sufficient incident monitoring and detection coverage in accordance with
government policies (NIST 800-53, 800-61, and OMB M-07-16, M-06-19)? - Yes

No exception noted. Our review of the Department’s incident monitoring and detection coverage
determined the Department has sufficient incident detection and monitoring coverage.

4.2   Please provide any additional information on the effectiveness of the Organization’s 
Incident Management Program that was not noted in the questions above.

No additional information to provide.


S5: Risk Management

5.1 Has the Organization established a risk management program that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines?- No.

If yes, besides the improvement opportunities that may have been identified by the OIG,
does the program include the following attributes:

5.1.1 Documented and centrally accessible policies and procedures for risk management,
including descriptions of the roles and responsibilities of participants in this process? - No

The Department does not have a developed risk management policy. The Department does
have procedures that are centrally accessible but are lacking required elements, such as
descriptions of roles and responsibilities of participants in the Risk Management Framework




50
  Audit Report 88401-01-12, Audit of the Office of the Chief Information Officer's FYs 2010 and 2011 Funding
Received for Security Enhancements (August 2012).


                                                                     AUDIT REPORT 50501-0003-12                27
(RMF) guide.51 In addition, the Department has not addressed step six of the RMF process
which is monitoring security controls. According to USDA, this occurred due to lack of
resources for policy development and because the Department is in the process of making
revisions and addressing missing requirements and enhancements to the procedures. Without a
policy and adequate procedures, the Department does not have a consistent and effective
approach to risk management that is applied to all risk management processes and procedures.

In the FISMA 2011 report, OIG recommended the Department develop a risk management
policy and associated procedures that fully comply with NIST. Management decision has not
been reached.

5.1.2 Addresses risk from an organization perspective with the development of a
comprehensive governance structure and organization-wide risk management strategy as
described in NIST 800-37, Rev.1? - No

The Department does not have an organizational-wide risk management strategy developed that
addresses risk from an organization perspective. According to OCIO officials, funding was
reduced for the team responsible for the development and implementation of the governance
project, which included the RMF strategy.

5.1.3 Addresses risk from a mission and business process perspective and is guided by the
risk decisions at the organizational perspective, as described in NIST 800-37, Rev.1? - No

As noted in questions 5.1.1 and 5.1.2, the Department does not have a policy, adequate
procedures, a governance structure, and an organizational risk management strategy. Therefore,
it has not defined the risks from a mission and business process perspective in order to address
them from an organizational perspective.

5.1.4 Addresses risk from an information system perspective and is guided by the risk
decisions at the organizational perspective and the mission and business perspective, as
described in NIST 800-37, Rev. 1? - No

As noted in questions 5.1.1 and 5.1.2, the Department does not have policies, adequate
procedures, a governance structure, and an organizational risk management strategy. Therefore,
officials have not defined the information system risks necessary to address them from a mission
and business perspective.




51
  USDA Six Step Risk Management Framework Process Guide, dated July 2011. NIST Special Publication
800-37 revision 1, Guide for Applying the Risk Management Framework to Federal Information Systems
(February 2010), states that organizational officials must identify the resources necessary to complete the risk
management tasks described in this publication and ensure that those resources are made available to appropriate
personnel.


28      AUDIT REPORT 50501-0003-12
5.1.5 Categorizes information systems in accordance with government policies? - No

We generated a report from Cyber Security Assessment and Management (CSAM) which
identified the impact level for each of the Department’s systems.52 The report included the
impact levels for Confidentiality, Integrity, and Availability, which were categorized as high,
moderate, and low. We compared the generated report to the recommendations in NIST and
found 18 of 257 systems indicated a lower rating than was recommended without adequate
justification for the reduction in categorization level.53 Systems were not properly
categorized. NIST requires that any adjustments to the recommended impact levels be
documented and include justification for the adjustment.

5.1.6 Selects an appropriately tailored set of baseline security controls? - No

NIST SP 800-53 recommends a set of minimum baseline security controls to be implemented
based on a system’s overall categorization. The lower the category, the fewer controls required.
Therefore, the incorrect categorization noted in 5.1.5 led to inadequate controls being
implemented for those 18 systems. NIST SP 800-60 states that an incorrect information system
impact analysis can result in the agency either over protecting the information system (thereby
wasting valuable security resources), or under protecting the information system and placing
important operations and assets at risk.

5.1.7 Implements the tailored set of baseline security controls and describes how the
controls are employed within the information system and its environment of
operation? - No

As noted in 5.1.6 the incorrect categorization noted in 5.1.5 led to inadequate controls being
implemented for those 18 systems.

5.1.8 Assesses the security controls using appropriate assessment procedures to determine
the extent to which the controls are implemented correctly, operating as intended, and
producing the desired outcome with respect to meeting the security requirements for the
system? - No

We found that security controls are not implemented correctly. Specifically, the security
controls were not implemented properly and did not sufficiently address each control. For
example, for 6 of 11 systems, the control involving Security Awareness Training was described

52
   CSAM is a comprehensive system developed by the Department of Justice, which can help in achieving FISMA
compliance. CSAM provides a vehicle for the Department, agencies, system owners, and security staffs to (1)
manage their system inventory, interfaces, and related system security threats and risks; (2) enter system security
data into a single repository to ensure all system security factors are adequately addressed; (3) prepare annual system
security documents, such as security plans, risk analyses, and internal security control assessments; and (4) generate
custom and predefined system security status reports to effectively and efficiently monitor each agency’s security
posture and FISMA compliance. This includes agency-owned systems or those operated by contractors on the
agency’s behalf.
53
   The 257 major applications were reported in CSAM as of August 8, 2012. NIST SP 800-60, Guide for Mapping
Types of Information and Information Systems to Security Categories, Vol. 1 (August 2008).


                                                                         AUDIT REPORT 50501-0003-12                29
as an inherited control. However, this control could not be inherited because procedures had to
be developed by the agencies as required by Departmental policy. Additionally, we found
controls that had not been assessed; and the agencies did not document reasons for the controls
not being assessed.

5.1.9 Authorizes information system operation based on a determination of the risk to
organizational operations and assets, individuals, other organizations, and the Nation
resulting from the operation of the information system and the decision that this risk is
acceptable? - No

The Department does not authorize information system operation based on a determination of the
risk to organizational operations and assets. We reviewed the Department’s inventory of
251 FISMA reportable systems and found a parent system identified as in development, but this
system had three child systems that were operational without Authorities to Operate (ATO).54
We found six additional systems that were operational with no ATO.55 Furthermore, the
Department has 22 systems with expired ATOs, one system being CSAM, the Department’s
system repository. This occurred because the Department felt that the systems needed to be
operational for business needs. As a result, the Department’s organizational operations and
assets are vulnerable.

In the FY 2009 FISMA report, OIG recommended that the Department develop and implement
an effective Certification & Accreditation (C&A) process based on NIST guidance and ensure
that all systems have the proper ATO.56 This recommendation reached final action; however, we
found that the same issue still exists.

5.1.10 Ensures information security controls are monitored on an ongoing basis including
assessing control effectiveness, documenting changes to the system or its environment of
operation, conducting security impact analyses of the associated changes, and reporting the
security state of the system to designated organizational officials? - No

NIST SP 800-53 states that the organization will assess the security controls in an information
system as part of the testing/evaluation process. However, as noted in 1.1.3, we identified
25 of 254 systems where ongoing assessments of selected security controls had not been
performed in FY 2012.57




54
   Total number of systems generated out of CSAM as of October 1, 2012.
55
   A parent system owns, manages, and/or controls the child system. System inventory as of October 1, 2012.
56
   A&A is the new terminology for the former Certification and Accreditation process mandated by OMB Circular
A-130, Appendix III, Security of Federal Automated Information Resources (November 28, 2000). The process
requires that IT system controls be documented and tested by technical personnel and that the system be given
formal ATO by an agency official.
57
   The 254 major applications were reported in CSAM as of October 2, 2012 at 8:49 a.m.


30      AUDIT REPORT 50501-0003-12
5.1.11 Information system specific risks (tactical), mission/business specific risks and
organizational level (strategic) risks are communicated to appropriate levels of the
organization? - No

As noted in 5.1.1-5.1.4, the Department does not have policies, adequate procedures, a
governance structure, and an organizational risk management strategy with defined risks in
place. Therefore, we were unable to determine if the information specific risks were
communicated to appropriate levels of the organization.

5.1.12 Senior Officials are briefed on threat activity on a regular basis by appropriate
personnel (e.g., CISO)? - Yes

No exception noted. The Department briefs appropriate personnel through weekly activity
reports.

5.1.13 Prescribes the active involvement of information system owners and common
control providers, chief information officers, senior information security officers,
authorizing officials, and other roles as applicable in the ongoing management of
information system-related security risks? - No

As noted in 5.1.1-5.1.4, the Department does not have a policy, adequate procedures, a
governance structure, or an organizational risk management strategy with defined risks.
Therefore, we were unable to determine if there is active involvement of information system
owners and common control providers, chief information officers, senior information security
officers, authorizing officials, and other roles as applicable in the ongoing management of
information system-related security risks.

5.1.14 Security authorization package contains system security plan, security assessment
report, and POA&M in accordance with government policies (SP 800-18, SP 800-37)? - No

The System Security Plans (SSP) we reviewed were inadequate and not in accordance with
Government policies.58 We found 11 of 11 SSPs failed to meet the minimum security
requirements required by NIST 800-53. Specifically, 6 of 11 of the systems’ security controls
did not include sufficient support for implementation. For instance, we found controls that had
not been assessed and did not have evidence to support why the controls were not assessed.

The Department’s Security Assessment Reports (SARs) we reviewed failed to meet the
minimum security required by NIST SP 800-37.59 Specifically, NIST SP 800-37 requires a
Security Assessment Plan (SAP) to be included with the SAR, which provides the objectives for

58
   The SSP is a required A&A document that provides an overview of the security requirements of the system and
describes the controls in place (or planned) for meeting those requirements. The SSP also delineates responsibilities
and expected behavior of all individuals who access the system. NIST SP 800-18, Guide for Developing Security
Plans for Federal Information Systems (February 2006).
59
   The results of the security control assessment, including recommendations for correcting any weaknesses or
deficiencies in the controls, are documented in the security assessment report (SAR).


                                                                        AUDIT REPORT 50501-0003-12               31
the security control assessment, a detailed roadmap of how to conduct such an assessment, and
assessment procedures. We found during our review three of the three SAPs that had fully
completed the A&A process had not been approved or authorized. As a result, USDA cannot be
assured that all system controls had been documented and tested, and that systems were
operating at an acceptable level of risk.

As noted in 7.1.6 USDA, POA&Ms did not meet Federal guidelines.

5.1.15 Security authorization package contains Accreditation boundaries for Organization
information systems defined in accordance with government policies? - Yes

No exception noted. During our review of the security authorization packages (which include
the SSP) to verify that system accreditation boundaries were accurately defined in accordance
with Government policies, we found that 11 of 11 packages adequately explained the
system boundaries.

5.2 Please provide any additional information on the effectiveness of the Organization’s 
Risk Management Program that was not noted in the questions above.

No additional information to provide.


S6: Security Training

6.1 Has the Organization established a security training program that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines?- Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

6.1.1 Documented policies and procedures for security awareness training
(NIST 800-53: AT-1)? - No

We determined the Department’s and two of two agencies’ security awareness policies met the
requirements outlined in NIST SP 800-53.60 In addition, the Department’s security awareness
training procedures met the requirements of NIST SP 800-53. However, one of the two agencies
we reviewed during this audit did not have adequate procedures in place to ensure employees
and contractors received adequate security awareness training.

In the FY 2011 FISMA report, OIG recommended that the Department develop monitoring
procedures to appropriately report the status of USDA employees being trained to meet their
information security awareness needs. This recommendation reached management decision, but


60
 Departmental SOP, Information Security Training, SOP-ISD 022 (October 7, 2008) and Information Security
Awareness Training, SOP-CPPO-018 (April 21, 2011).


32      AUDIT REPORT 50501-0003-12
has exceeded the estimated completion date of September 30, 2012.

6.1.2 Documented policies and procedures for specialized training for users with
significant information security responsibilities? - No

The Department’s policy for specialized security training was not fully developed. In addition,
the Department’s specialized security training procedures and the procedures for two of two
agencies were not fully developed or sufficiently detailed.61 Specifically, we found the
Department’s policy for specialized training did not include a definition of significant
information security responsibilities. The Department’s policy is currently in draft and was not
released as of September 30, 2012. A guidance memo/bulletin was sent to the agencies on how
to identify employees who need to complete the specialized training. Both agencies reviewed
are following this memo until the official policy is developed and finalized.

In the FY 2009 FISMA report, OIG recommended that the Department develop training policies
and procedures for personnel with significant security responsibilities, to include a Departmental
definition of what constitutes significant security responsibilities. The recommendation is still
open; OCIO has exceeded its estimated completion date of September 30, 2011.

6.1.3 Security training content based on the organization and roles, as specified in
Organization policy or standards? - Yes

No exception noted. OIG reviewed the training content for individuals of the two sampled
agencies with significant information security responsibilities. All 45 reviewed employees had
training that was documented and was appropriate for role-based training.

6.1.4 Identification and tracking of the status of security awareness training for all
personnel (including employees, contractors, and other Organization users) with access
privileges that require security awareness training? - Yes

No substantial exception noted. NIST SP 800-53 Rev 3 requires agencies to document and
monitor individual information system security training activities and to retain individual
training records. During our review of the two agencies, we found 2 of 9,507 users (less than
1 percent) with login privileges without evidence that the users had completed the annual
security awareness training. We considered this to have substantially met the requirements.




61
   NIST SP 800-53 requires the organization to provide basic security awareness training to all users. Additionally,
it requires the organization to identify and provide information system managers, system and network
administrators, personnel performing independent verification and validation activities, security control assessors,
and other personnel having access to system-level software with role-based specialized security training related to
their specific roles and responsibilities. The organization is to determine the appropriate content of security training
and the specific requirements of the organization and the information systems to which personnel have authorized
access.


                                                                          AUDIT REPORT 50501-0003-12                 33
In the FY 2010 FISMA report, OIG recommended that the Department ensure its training
repository is completely populated to ensure all required personnel receive the required training.
This recommendation is still open; OCIO has exceeded its estimated completion date of
August 30, 2011.

6.1.5 Identification and tracking of the status of specialized training for all personnel
(including employees, contractors, and other Organization users) with significant
information security responsibilities that require specialized training? - Yes

No exception noted. NIST SP 800-53 requires agencies to provide role-based training. Agencies
are to document and monitor individual information system security training activities and to
retain individual training records. OIG reviewed the training content for individuals with
significant information security responsibilities of the two sampled agencies. Our testing of
45 employees with significant security responsibilities found all 45 employees from the
2 sampled agencies had adequate role-based training to meet NIST requirements and had
documented evidence of specialized training attendance.

6.1.6 Training material for security awareness training contains appropriate content for
the Organization (SP 800-50, SP 800-53)? - Yes

No exception noted. We found that the training material for the security awareness does contain
the appropriate content to meet NIST SP 800-53.

6.2 Please provide any additional information on the effectiveness of the Organization’s 
Security Training Program that was not noted in the questions above.

No additional information to provide.


S7: Plan Of Action & Milestones (POA&M)

7.1 Has the Organization established a POA&M program that is consistent with FISMA
requirements, OMB policy, and applicable NIST guidelines and tracks and monitors
known information security weaknesses?- Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

7.1.1 Documented policies and procedures for managing IT security weaknesses
discovered during security control assessments and requiring remediation? - No

The Department’s security manual did not include a policy establishing a POA&M process for
reporting IT security deficiencies and for tracking the status of remediation efforts. The
Department stated that it was in the process of finalizing a draft policy. In addition, the two
agencies reviewed did not have POA&M policies. Instead, the agencies stated that they followed
the Department’s policy; however, the Department had not published an official POA&M policy.


34     AUDIT REPORT 50501-0003-12
Additionally, although there were no formal policies, the Department does have established
procedures. Our review of the POA&M SOP determined it was updated to include OMB 04-25
outlined criteria, and that it reflected the current POA&M process.62 However, we found that
both of the selected agencies did not have established POA&M procedures for managing IT
security weaknesses discovered during security control assessments and requiring remediation.

In the FY 2010 FISMA report, OIG recommended that the Department develop POA&M policy
and procedures that adhere to Federal requirements. The policy and procedures should include
detailed instructions for the use of CSAM, an effective closure review process, and periodic
reviews of the information in CSAM. Final action was achieved May 30, 2012. However, we
found the Department’s POA&M policy is still in draft and not yet finalized.

7.1.2 Tracks, prioritizes and remediates weaknesses? - Yes

No exception noted. We found the Department’s POA&M program tracks, prioritizes and
remediates weaknesses. The Department uses CSAM as the central repository for POA&Ms,
which includes tracking weaknesses, identifying priority levels, and housing all supporting
documentation of remediation. The Department holds bi-weekly meetings with each agency to
discuss POA&M status and any outstanding POA&M issues, in order to continually monitor
agency progress. We found all POA&Ms, as of September 12, 2012, had an identified priority
level. Additionally, we determined that weaknesses were remediated throughout the fiscal year.

7.1.3 Ensures remediation plans are effective for correcting weaknesses? - No

OMB 04-25 specifies that effective remediation of IT security weaknesses is essential to achieve
a mature and sound IT security program, and for securing information and systems. It further
states that a milestone should identify specific requirements to correct an identified
weakness. To test the Department’s remediation effectiveness, we reviewed a statistical sample
of 69 POA&Ms that were closed during FY 2012, and found 11 were closed without documented
remediation plans.63 Based on our sample results, we estimate 176 POA&Ms (15.9 percent of
the universe) were closed in FY 2012 with remediation actions that did not sufficiently address
the identified weaknesses in accordance with Government policies.64 Additionally, of the
POA&M closures reviewed by the Department, 17 of 94 closures were not acceptable, due to
insufficient documentation to support remediation or the closure procedures were not followed.




62
   Departmental SOP, Plan of Action and Milestones Management SOP (June 29, 2011).
63
   We based our sample size on a 25 percent error rate and desired absolute precision of +/-10 percent, at the
95 percent confidence level. With these assumptions, we calculated a sample size of 69 POA&Ms for review and
selected them by choosing a simple random sample. Additional sample design information is presented in
Exhibit B.
64
   We are 95 percent confident that between 81 (7.4 percent) and 271 (24.5 percent) of closed POA&Ms in FY12
had remediation actions that did not sufficiently address the identified weaknesses in accordance with Government
policies. Additional sample design information is presented in Exhibit B.


                                                                      AUDIT REPORT 50501-0003-12               35
In the FY 2009 FISMA report, OIG recommended that the Department develop and implement
an effective process to ensure POA&Ms are entered, tracked, and closed properly. The process
should include the required link to budgetary resources. Final action was achieved on
May 30, 2012; however, we continue to find that POA&Ms are not being closed properly.
Additionally, in order to achieve final action OIG stated that OCIO needed to provide copies of
the CSAM User's Guide and the POA&M policy. However, we found the Department’s
POA&M policy is still in draft and not yet finalized.

7.1.4 Establishes and adheres to milestone remediation dates? - No

We found that 995 of the 3,606 (28 percent) milestones completed in FY 2012 were not
completed by the planned milestone finish date. We found that milestone dates are being
established but the remediation dates are not always adhered to.

7.1.5 Ensures resources are provided for correcting weaknesses? - No

We found weaknesses that were not being remediated due to inadequate resources. We
identified 228 delayed POA&Ms as of September 12, 2012. We determined 53 of the
228 POA&Ms were delayed due to inadequate resources for one of the following reasons:

     ·   Funds not allocated or insufficient funding;
     ·   Personnel shortage; or
     ·   Assigned funds withdrawn.

7.1.6 POA&Ms include security weaknesses discovered during assessments of security
controls and requiring remediation. (Do not need to include security weakness due to a
Risk Based Decision to not implement a security control) (OMB M-04-25)? - No

OMB requires agencies to prepare POA&Ms for all programs and systems where an IT security
weakness has been found.65 The Department’s SOP requires an agency to create a POA&M
when an identified weakness cannot be remediated within 30 days. However, we found
POA&Ms had not been created for the 10 FY 2011 FISMA Departmental audit
recommendations. Also, an internal control audit identified one agency that was not creating
POA&Ms for vulnerabilities identified from scan results.

7.1.7 Costs associated with remediating weaknesses are identified
(NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25)? - Yes

No exception noted. OMB requires that POA&Ms include the estimated funding resources
required to resolve the weakness. We found 27 of 532 (5 percent) POA&Ms that did not have
costs associated. Because of the significant progress the Department has made (down from
38 percent in FY 2011) we consider the FY 2012 number to be insignificant.


65
  OMB M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
(August 23, 2004).


36       AUDIT REPORT 50501-0003-12
7.1.8 Program officials and contractors report progress on remediation to CIO on a
regular basis, at least quarterly, and the CIO centrally tracks, maintains, and
independently reviews/validates the POA&M activities at least quarterly
(NIST SP 800-53, Rev. 3, Control CA-5, and OMB M-04-25)? - No

The Department’s SOP requires that a POA&M closure review be performed at least once per
quarter. This includes a review of all closed POA&Ms resulting from a GAO or OIG audit. In
addition, the Department is required to review another 10 percent of non-audit related, closed
POA&Ms. We found the required reviews were not being completed by the Department. For
example:

       ·   OCIO was not completing a quarterly review of closed POA&Ms as required by its SOP;
       ·   OIG found that not all closed POA&Ms resulting from a GAO or OIG audit were
           subjected to the closure review process; and
       ·   OIG found that the Department had not met the requirement to review a minimum of
           10 percent of all closed non-audit POA&Ms.

In the FY 2011 FISMA report, OIG recommended that the Department actively manage the
POA&M process, which includes tracking and reviewing POA&Ms in accordance with its recently
issued SOP. The recommendation has not reached management decision.

7.2   Please provide any additional information on the effectiveness of the Organization’s 
POA&M Program that was not noted in the questions above.

No additional information to provide.


S8: Remote Access Management

8.1 Has the Organization established a remote access program that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines?- Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

8.1.1 Documented policies and procedures for authorizing, monitoring, and controlling all
methods of remote access (NIST 800-53: AC-1, AC-17)? - No

Although the Department has a remote access policy, our testing found it did not meet all NIST
requirements. There were two policy areas that were not addressed in the Departmental policy as
outlined by NIST.66 One area was the administration of remote access servers and the other was
the periodic reassessment of the telework device policies. Additionally, we found two of two
agencies reviewed did not have a remote access policy fully developed. This occurred because

66
     NIST SP 800-46, Guide to Enterprise Telework and Remote Access Security, Revision 1 (June 2009).


                                                                      AUDIT REPORT 50501-0003-12        37
they both depended on the Departmental policy which was not sufficient. As a result,
inadequate security of remote access could result in the unauthorized access, use, disclosure,
disruption, modification, or destruction of information.

In the FY 2010 FISMA report, we recommended the Department develop a remote access and
telework policy and procedures that fully comply with NIST. The recommendation is still open;
OCIO has exceeded the estimated completion date of August 31, 2011.

8.1.2 Protects against unauthorized connections or subversion of authorized
connections? - No

We found, or the agencies self-reported, that three out of three agencies’ remote access programs
were not protected against unauthorized connections or subversion of authorized connections.
This occurred because they either relied on their general network access logging to capture
events or they had logs and were unable to provide any documentation that log reviews had
occurred.

8.1.3 Users are uniquely identified and authenticated for all access
(NIST 800-46, Section 4.2, Section 5.1)? - No

We found two agencies out of the two reviewed were not using multi-factor authentication for
remote access as required, which hampers the program from uniquely identifying and
authenticating users. This occurred because the Departmental solution had not been
implemented and the telework policy was insufficient.

8.1.4 Telecommuting policy is fully developed (NIST 800-46, Section 5.1)? - No

As reported in item 8.1.1 above, the Department has a remote access (and telework) policy
but our testing found it did not meet all NIST requirements. It establishes the telework program
for the agency and outlines parts of the program like the types of telework agreements,
eligibility, exclusions, etc. However, the information security section does not provide detailed
policy guidance for securing the equipment, work products, and software while
teleworking. Specifically we found two of the two agencies reviewed did not have a fully
developed telecommuting policy. This occurred because the agencies depended on the
Departmental policy which had deficiencies.

In the FY 2010 FISMA report, we recommended that the Department develop a remote access
and telecommuting policy and procedures that fully comply with NIST. The recommendation is
still open; OCIO has exceeded its estimated completion date of August 31, 2011.

8.1.5 If applicable, multi-factor authentication is required for remote access
(NIST 800-46, Section 2.2, Section 3.3)? - No

DR 3505-003 specifies that agencies will implement multi-factor authentication for all forms of
remote access to agency information systems. We found, or agencies self-reported,
that while multi-factor authentication for remote access is required by Departmental policy,

38     AUDIT REPORT 50501-0003-12
four of the four agencies reviewed did not have it properly implemented. This occurred because
there are several problems with going exclusively to PIV cards and agencies are using alternative
solutions. One issue with the cards is it can take weeks for new employees, or existing
employees who lose their cards, to receive a new one.

In the FY 2010 FISMA report, we recommended the Department complete the Departmental
projects that will enforce multi-factor authentication and external media encryption. The
recommendation is still open; OCIO has exceeded its estimated completion date of
September 30, 2011.

8.1.6 Authentication mechanisms meet NIST Special Publication 800-63 guidance on
remote electronic authentication, including strength mechanisms? - No

If the Department would require the PIV cards for remote access authentication, it would satisfy
all the NIST requirements, including strength mechanisms.67 As reported in item 8.1.5 above,
we found that while multi-factor authentication for remote access is required by Departmental
policy, four agencies of the four reviewed did not properly implement it.

8.1.7 Defines and implements encryption requirements for information transmitted across
public networks? - Yes

No exception noted. We found two of the two agencies reviewed had defined and implemented
encryption requirements for information transmitted across public networks.

8.1.8 Remote access sessions, in accordance to OMB M-07-16, are timed-out after
30 minutes of inactivity after which re- authentication are required? - Yes

No exception noted. We reviewed two agencies’ remote access session time-out settings and
found they were compliant with OMB, and timed-out after 30 minutes of inactivity, after which
re-authentication was required.68

8.1.9 Lost or stolen devices are disabled and appropriately reported
(NIST 800-46, Section 4.3, US-CERT Incident Reporting Guidelines)? - No

Even though lost and stolen equipment was consistently being processed (wiped and/or
disabled), we found that 18 of 20 incidents of lost or stolen remote access devices were not
reported appropriately within the required timeframe.

8.1.10 Remote access rules of behavior are adequate in accordance with government
policies (NIST 800-53, PL-4)? - Yes

No exception noted. We reviewed two agencies’ rules of behavior agreements, and found they

67
  NIST SP 800-63, Electronic Authentication Guideline (April 2006).
68
  OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information
(May 22, 2007).


                                                                   AUDIT REPORT 50501-0003-12             39
were in accordance with Government policies.

8.1.11 Remote access user agreements are adequate in accordance with government
policies (NIST 800-46, Section 5.1, NIST 800-53, PS-6)? - Yes

No exception noted. We reviewed two agencies’ user access agreements, and found they were in
accordance with Government policies.

8.2   Please provide any additional information on the effectiveness of the Organization’s 
Remote Access Management that was not noted in the questions above.

No additional information to provide.


S9: Contingency Planning

9.1 Has the Organization established an enterprise-wide business continuity/disaster
recovery program that is consistent with FISMA requirements, OMB policy, and
applicable NIST guidelines? Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

9.1.1 Documented business continuity and disaster recovery policy providing the
authority and guidance necessary to reduce the impact of a disruptive event or disaster
(NIST 800-53: CP-1)? - No

NIST SP 800-53 states that the organization should develop, disseminate, and review/update a
formal, documented contingency planning policy. We found that the Department’s contingency
planning policy did not meet these requirements. For example, the policy did not address
alternate telecommunications providers. This occurred because the Department’s policy has not
been updated with the new NIST elements.

In the FY 2010 FISMA report, we recommended that the Department ensure that agencies have
developed effective contingency planning policy and procedures in accordance with NIST. The
policy and procedures should address suitable alternate processing sites, backup tape storage
locations, and backup testing. OCIO has exceeded its estimated completion date of September
30, 2011. The Department has stated that it has updated the template and it is currently in the
approval process. In the FY 2011 FISMA report, OIG recommended that the Department update
the contingency plan template to adequately address all NIST 800-34 requirements.69 The
recommendation is still open; OCIO has exceeded its estimated completion date of September
30, 2012. However, OCIO stated that Cyber Policy and Oversight (CPO) are in the process of
drafting a new contingency plan policy to comply with NIST requirements and officials stated


69
     NIST SP 800-34, Contingency Planning Guide For Federal Information Systems (May 2010).


40        AUDIT REPORT 50501-0003-12
that they are actively working on the template.70

9.1.2 The Organization has performed an overall Business Impact Analysis (BIA)
(NIST SP 800-34)? - No

NIST SP 800-34 states that conducting the BIA is a key element in a comprehensive information
system contingency planning process. The Department’s guide on developing contingency plans
requires that a BIA be completed for each system. We found one of two agencies did not have a
BIA for any of its systems.

9.1.3 Development and documentation of division, component, and IT infrastructure
recovery strategies, plans and procedures (NIST SP 800-34)? - Yes

We found all contingency plans—18 of 18 from our sampled agencies—had addressed the key
information required by NIST SP 800-34.

9.1.4 Testing of system specific contingency plans? - No

NIST SP 800-53 requires Federal agencies to test and exercise contingency plans for information
systems, using organization-defined tests or exercises. This is done to determine the plan’s
effectiveness, and the organization’s readiness to execute the plan, and initiate corrective actions.
We identified 42 of 247 systems for which USDA system contingency plans had not been tested
or for which documentation had not been updated during FY 2012.71

9.1.5 The documented business continuity and disaster recovery plans are in place and
can be implemented when necessary (FCD1, NIST SP 800-34)? - No

NIST SP 800-53 requires the agency to have formal, documented procedures to facilitate the
implementation of its contingency planning policy and associated controls. We found that the
documented business continuity and disaster recovery plans were not in place and could not be
implemented when necessary. For example, four of eight contingency plans we reviewed had
not completed testing or fully developed training plans and exercises. Also, 9 of 58 sampled
systems from the Department did not have evidence of effective ongoing testing.72 Based on our
sample results, we estimate that 32 (15.5 percent of the universe) systems in our universe did not
have evidence of ongoing testing.73




70
   USDA Contingency Plan Template (March 2011).
71
   The 247 major applications were reported in CSAM as of October 2, 2012.
72
   We selected a simple random sample of 58 contingency plans for review. For a 95 percent confidence level, this
sample size was adequate for a range of potential outcomes: from a 0 percent exception rate with a 5 percent upper
limit to a 30 percent error rate with +/-10 percent precision. Additional sample design information is presented in
Exhibit B.
73
   We are 95 percent confident that between 15 (7.4 percent) and 48 systems (23.6 percent) are non-compliant with
this criterion. Additional sample design information is presented in Exhibit B.


                                                                       AUDIT REPORT 50501-0003-12               41
9.1.6 Development and fully implementable of test, training, and exercise (TT&E)
programs (FCD1, NIST SP 800-34, NIST 800-53)? - No

NIST SP 800-53 requires Federal agencies to test and exercise contingency plans for information
systems, using organization-defined tests or exercises. This is done to determine the plan’s
effectiveness, and the organization’s readiness to execute the plan and initiate corrective actions.
However, we found that, of the 8 systems from two agencies, 4 had not fully implemented
training, testing, and exercise programs.

9.1.7 Performance of regular ongoing testing or exercising of business continuity/disaster
recovery plans to determine effectiveness and to maintain current plans? - No

NIST SP 800-53 requires Federal agencies to test and exercise contingency plans for information
systems and to review the contingency plan test/exercise results and initiate corrective actions.
We found that one of our selected agencies did not have documented evidence of its contingency
plan tests. The other agency had 7 of 15 systems with persistent issues that were not being
remediated from year to year after contingency plan testing.

9.1.8 After-action report that addresses issues identified during contingency/disaster
recovery exercises (FCD1, NIST SP 800-34)? - No

NIST SP 800-34 states that all recovery and reconstitution events should be well documented,
which includes actions taken, and problems encountered during recovery and reconstitution
efforts. An after-action report with lessons learned should be documented and updated. Our
review found one of two agencies did not have a record of testing and therefore no after action
report.

9.1.9 Systems that have alternate processing sites (FCD1, NIST SP 800-34,
NIST SP 800-53)? - No

NIST SP 800-53 requires alternate processing sites to be established for information systems in
case of a disaster. We sampled 58 systems and found 3 of those systems did not meet the
requirement to provide an alternate processing site.74 Based on our sample results, we estimate
that 11 systems (5.2 percent of the universe) in our universe did not meet the requirements to
provide an alternate processing site.75

In the FY 2010 FISMA report, we recommended that the Department ensure that all required
contingency planning documents are in CSAM, and all required fields are properly populated.
This should include recovery strategies, plans, and procedures, as well as testing, training, and

74
   We selected a simple random sample of 58 contingency plans for review. For a 95 percent confidence level, this
sample size was adequate for a range of potential outcomes: from a 0 percent exception rate with a 5 percent upper
limit to a 30 percent error rate with +/-10 percent precision. Additional sample design information is presented in
Exhibit B.
75
   We are 95 percent confident that between 3 (actual found; 1.5% percent of audit) and 21 systems (10.1 percent)
are non-compliant with this criterion. Additional sample design information is presented in Exhibit B.


42      AUDIT REPORT 50501-0003-12
exercise results. As part of this recommendation, we also suggested that the Department
periodically review CSAM to ensure compliance. OCIO has exceeded its estimated completion
date of September 30, 2011.

9.1.10 Alternate processing sites are subject to the same risks as primary sites
(FCD1, NIST SP 800-34, NIST SP 800-53)? - No

As noted in 9.1.9, we found 3 of 58 systems did not have alternate processing sites. Based on
our sample results, we estimate that 11 systems (5.2 percent of the universe) in our universe did
not meet the requirements to provide an alternate processing site.76

9.1.11 Backups of information are performed in a timely manner (FCD1, NIST SP 800-34,
NIST SP 800-53)? - No

NIST SP 800-53 states that the organization should conduct user-level, system-level, and
information system documentation backups. We found 4 of 12 agencies reviewed by OIG,
independent contractors, and during annual agency self-assessments had not performed backups
in a timely manner. For example, three systems from one agency had failed backups. For one of
those systems the backup was not completed successfully until three days later and another was
not completed at all for the requested date.

9.1.12 Contingency planning that consider supply chain threats? - No

We found contingency plans in one of two agencies we tested did not consider its supply chain
threats. This occurred because Disaster Recovery Plans had not been completed.

9.2   Please provide any additional information on the effectiveness of the Organization’s 
Contingency Planning Program that was not noted in the questions above.

No exception noted. OIG was able to observe two different contingency plan table top
exercises. Both exercises were successful at noting issues that need to be addressed and were
positive training opportunities for those involved. There were no major issues to
report. However, it should be noted that the facilitator for one exercise incorrectly suggested to
the participants that live events be recorded and written up in the form of after-action reports so
that they did not have to complete contingency plan testing each year. One agency self-reported
that it did not meet the NIST requirements to provide initial contingency planning training to
personnel; it failed to define the training frequency and to provide refresher training.




76
  We are 95 percent confident that between 3 (actual found; 1.5% percent of audit) and 21 systems (10.1 percent)
are non-compliant with this criterion. Additional sample design information is presented in Exhibit B.


                                                                      AUDIT REPORT 50501-0003-12               43
S10: Contractor Systems

10.1 Has the Organization established a program to oversee systems operated on its behalf
by contractors or other entities, including Organization systems and services residing in the
cloud external to the Organization?- No.

Besides the improvement opportunities that may have been identified by the OIG, does the
program includes the following attributes:

10.1.1 Documented policies and procedures for information security oversight of systems
operated on the Organization’s behalf by contractors or other entities, including
Organization systems and services residing in public cloud? - No

We found that the Department has not established a program to oversee systems operated on its
behalf by contractors or other entities, including organization systems and services residing in
the cloud environment external to the organization. We found that the Department does not have
documented policies relating to this topic.

In the FY 2010 FISMA report, we recommended that the Department develop policy and
procedures for information security oversight of systems operated on the agency’s behalf. These
policy and procedures should ensure that an accurate inventory of contractor systems and
memoranda of understanding/interconnection service agreements are completed
periodically. The recommendation is still open and has exceeded the estimated completion date
of September 15, 2011. OCIO has had a policy in draft for 2 years and has not yet finalized it.

10.1.2 The Organization obtains sufficient assurance that security controls of such systems
and services are effectively implemented and comply with Federal and Organization
guidelines? - No

As noted in 10.1.3 below, we found operational contractor systems in CSAM that did not have a
current ATO, did not sufficiently document its interconnections, or did not have a signed SSP.
Based upon these findings, we determined that the Department’s contractor systems program
was not ensuring that security controls of contractor systems and services were effectively
implemented and complied with organizational guidelines.

10.1.3 A complete inventory of systems operated on the Organization’s behalf by
contractors or other entities, including Organization systems and services residing in public
cloud? - No

USDA’s Contractor Systems program does not include a complete inventory of systems operated
on the organization’s behalf by contractors or other entities, including organization systems and
services residing in a public cloud. We found one contractor system was not in the Department’s
inventory, four contractor systems had insufficient interconnection documentation, and one cloud
system was in production for 15 months before being documented in CSAM. We also reviewed




44     AUDIT REPORT 50501-0003-12
a random sample of 40 non-contractor systems and found 10 had insufficient interconnection
documentation.77 Based on our sample results, we estimate 57 non-contractor systems
(25.0 percent of the universe) had insufficient interconnection documentation.78

In the FY 2010 FISMA report, we recommended that OCIO ensure contractor and non-
contractor systems inventory and interfaces are accurate and updates are completed at least
annually. The recommendation is still open; OCIO has exceeded its estimated completion date
of September 30, 2011.

10.1.4 The inventory identifies interfaces between these systems and Organization-
operated systems (NIST 800-53: PM-5)? - No

We reviewed interconnection documentation for 10 operational and reportable contractor
systems in CSAM and found that 4 did not have adequately identified or documented interfaces
in CSAM.

As noted in 10.1.3 above, in the FY 2010 FISMA report, we recommended that the Department
ensure contractor and non-contractor systems inventory and interfaces are accurate and updates
are completed at least annually. The recommendation is still open; OCIO has exceeded its
estimated completion date of September 30, 2011.

Also, in the FY 2009 FISMA report, we recommended the Department develop and implement
an effective process to ensure system interfaces are accounted for in CSAM. The Department
reached final decision by issuing a CSAM Users Guide and POA&M SOP (CPO-SOP-002).
Because these are not policy guidance, we take exception to final action being reached on this
recommendation.

10.1.5 The Organization requires appropriate agreements (e.g., MOUs, Interconnection
Security Agreements, contracts, etc.) for interfaces between these systems and those that it
owns and operates? - No

The Department's Contractor Systems program was not requiring appropriate agreements
(e.g., MOUs, Interconnection Security Agreements, contracts, etc.) for interfaces between these
systems and those that it owns and operates. As noted in 10.1.4 above, we found four contractor
systems that did not have adequately identified or documented interfaces in CSAM.




77
   We based our sample size on a 15 percent error rate and desired absolute precision of +/-10 percent, at the
95 percent confidence level. With these assumptions, we calculated a sample size of 40 systems for review and
selected them by choosing a simple random sample. Additional sample design information is presented in
Exhibit B.
78
   We are 95% confident that between 28 (12.3 percent) and 85 (37.7 percent) non-contractor systems may have
insufficient interconnection documentation in CSAM. Additional sample design information is presented in
Exhibit B.


                                                                      AUDIT REPORT 50501-0003-12                 45
10.1.6 The inventory of contractor systems is updated at least annually? - No

We found that the inventory reconciliation had not been performed for 3 years and the
Department did not have documented policies and procedures for oversight of contractor
systems.

As noted in 10.1.3 above, in the FY 2010 FISMA report, we recommended that OCIO ensure
contractor and non-contractor systems inventory and interfaces are accurate and updates are
completed at least annually. The recommendation is still open; OCIO has exceeded its estimated
completion date of September 30, 2011.

10.1.7 Systems that are owned or operated by contractors or entities, including
Organization systems and services residing in public cloud, are compliant with FISMA
requirements, OMB policy, and applicable NIST guidelines? - No

We found eight contractor systems with expired ATOs, four contractor systems with missing
interconnection agreements, and five contractor systems with missing SSP signatures. We also
found a cloud system with incomplete documentation and another that was not included in the
Department’s inventory.

10.2   Please provide any additional information on the effectiveness of the Organization’s 
Contractor Systems Program that was not noted in the questions above.

No additional information to provide.


S11: Security Capital Planning

11.1 Has the Organization established a security capital planning and investment
program for information security?- Yes.

Besides the improvement opportunities that may have been identified by the OIG, does the
program include the following attributes:

11.1.1 Documented policies and procedures to address information security in the capital
planning and investment control (CPIC) process? - No

We reviewed Capital Planning policies and procedures at the Departmental and agency levels to
determine if all critical elements were included in the documents. One of seven criteria
identified in the OMB A-11 and NIST 800-65 guidance was not included in the Departmental
Manuals. This occurred because the Capital Planning Division (CPD) was not aware the criteria
needed to be included in the Departmental policy. As a result, agencies lack formal guidance on
the definition of a major information technology investment. The CPD has updated its policy
guidance to incorporate the regulatory criteria missing; however, as of October 1, 2012, CPD had
not implemented the updated policy.

Additionally, our review of CPIC policy and procedures at the agency level determined that one

46     AUDIT REPORT 50501-0003-12
of two agencies was not adhering to the appropriate Departmental policies pertaining to
information technology capital investments.

In the FY 2011 FISMA report, OIG recommended that the Department update its Capital
Planning policies to incorporate a definition of a “major IT investment” so that agencies have a
documented description to use. The recommendation is still open; OCIO has exceeded its
estimated completion date of September 30, 2012.

11.1.2 Includes information security requirements as part of the capital planning and
investment process? - No

We reviewed the Exhibit 53B documentation submitted by USDA and the two selected agencies
as part of the annual budgeting process.79 Our testing determined USDA’s security capital
planning and investment program includes information security requirements as part of the
capital planning and investment process; however, detailed testing determined two of the two
agencies selected for testing could not provide adequate supporting documentation for the
amounts submitted on their annual Exhibit 53B. This occurred because the agencies were
unaware of the need to retain adequate supporting documentation used for the budgeting process.
As a result, USDA lacks justification for the IT security costs portion of its budgetary request.

11.1.3 Establishes a discrete line item for information security in organizational
programming and documentation (NIST 800-53: SA-2)? - No

We reviewed the Exhibit 53B documentation submitted by USDA and the two selected agencies
as part of the annual budgeting process. Our testing determined USDA’s security capital
planning and investment program establishes a discrete line item for information security in
organizational programming and documentation based on information submitted on the Exhibit
53Bs by USDA and agencies selected for testing. However, as noted in 11.1.2, detailed testing
determined two of the two agencies selected could not provide supporting documentation for the
amounts submitted on their annual Exhibit 53B.

11.1.4 Employs a business case/Exhibit 300/Exhibit 53 to record the information security
resources required (NIST 800-53: PM-3)? - No

We reviewed a sample of Exhibit 300 documents submitted by agencies within USDA to verify
that the Exhibit 300 was accompanied by OMB required supporting documentation.80 Our
testing determined that USDA does not consistently employ business cases across Exhibit 300s
based on the absence of required documentation for four of the six Exhibit 300s reviewed. As a
result, the Major IT investments within USDA lack the required supporting documentation that
outlines the investments planning, funding, and implementation progress. This occurred because

79
   Agencies must provide IT Investment information using the Agency IT Investment Portfolio (Exhibits 53A&B),
Guidance on Exhibit 53 – Information Technology and E-Government, OMB (2011).
80
   Exhibit 300s establishes policy for planning, budgeting, acquisition, and management of major IT capital
investments. OMB, Guidance on Exhibit 300 – Planning, Budgeting, Acquisition, and Management of IT Capital
Assets (2011).


                                                                    AUDIT REPORT 50501-0003-12             47
the CPD did not require all supporting documentation to be submitted.

11.1.5 Ensures that information security resources are available for expenditure as
planned? - No

We reviewed the Exhibit 53B documentation submitted by USDA and the two selected agencies
as part of the annual budgeting process. Our testing determined that the Exhibit 53B was
prepared and submitted; however, as noted in 11.1.2, the agencies could not provide
documentation that supported the amounts included on the Exhibit 53B. We determined the
agency did not adequately plan when expending IT resources based on the Exhibit 53B because
supporting documentation for the amounts was not maintained. This occurred because CPD did
not require all supporting documentation to be submitted. As a result, USDA lacks justification
for the IT security costs portion of its budgetary request.

11.2   Please provide any additional information on the effectiveness of the Organization’s 
Security Capital Planning Program that was not noted in the questions above.

No additional information to provide.




48     AUDIT REPORT 50501-0003-12
Exhibit B: Sampling Methodology and Projections
Objective:

This sample was designed to support OIG audit number 50501-0003-12. The objective of this
audit was to evaluate the status of USDA’s overall IT security program, based on the following
overarching criteria:
   ·   Effectiveness of the Department’s oversight of agencies’ IT programs, and compliance
       with FISMA;
   ·   Agencies’ system of internal controls over IT assets;
   ·   Department’s progress in establishing a Departmentwide security program, which
       includes effective assessment and authorization;
   ·   Agencies’ and Department’s POA&M consolidation and reporting process; and
   ·   Effectiveness of controls over configuration management, incident response, IT training,
       remote access management, identity and access management, continuous monitoring,
       contingency planning, contractor systems, and capital planning.

FISMA Audit Universes and Sample Designs:

FISMA contains multiple areas, pertaining to various areas of IT security. Statistical sampling
was incorporated in four FISMA areas, and each of the four areas was represented by a different
universe. The specific designs are summarized below for each of the four audit areas.

1. Incident Response and Reporting

Universe:

The audit universe consisted of 823 incidents reported for FY 2012, as of April 3, 2012. Each
incident had a unique identifier (incident number) and was categorized based on incident type
into 1 of 8 categories. A listing and counts of the different categories are presented in the sample
design section below.

Sample Design:

Each category has specific procedures and timelines that must be met by OCIO and the agency.
While standards differ among the categories, the standards fall into four common groups:
checklist requirements, reporting requirements, timely resolution, and damage containment.
Thus, each incident response can be assessed as “pass” or “fail” when compared to the criteria
that apply specifically to that incident type. This allowed us to combine incident response
performance results (pass or fail) for the mix of incident types.

We selected a simple random sample of 75 incidents for review. The sample size of incidents
was based on an error rate of 30 percent and a desired absolute precision of +/-10 percent of the
audit universe, when reporting a 95 percent confidence level.


                                                             AUDIT REPORT 50501-0003-12         49
The resulting sample design and universe counts are summarized in the table below.

Table 1: Incidents universe and sample counts by category
                                 Incident Type                                  Universe Sample
 USCERT CAT0 - Exercise/Network Defense Testing Count                                 124          10
 USCERT CAT1 - Unauthorized Access Count                                                46           4
 USCERT CAT3 - Malicious Code Count                                                   225          18
 USCERT CAT4 - Improper Usage Count                                                     11           1
 USCERT CAT5 - Scans/Probes/Attempted Access Count                                      19           2
 USCERT CAT6 - Investigation Count                                                      77           7
 USDA CAT8 (USCERT CAT1) - Loss, Theft, Missing Count                                 199          20
 USDA CAT9 - Block List Count                                                         122          13
                                                                       Total:         823          75

Results:

Results are projected to the audit universe of 823 incidents. Achieved precision, relative to the
universe, is reflected by the confidence interval for a 95 percent confidence level. All
projections are made using the normal approximation to the binomial, as reflected in standard
equations for a stratified sample.81

The audit team tested a variety of criteria--Did the incident:
       ·   Include the required PII checklist?
       ·   Get reported to US-CERT within the required timeframe?
       ·   Include the proper checklist and was it completed correctly, and; if not complete, did IHD
           accept the incident?
       ·   Include a fully completed Incident Identification Form?
       ·   Include the required incident category checklist?
       ·   Have a POA&M created if it was open for over 30 days?

We used a projection for whether all checklists were completed, as required by SOP, and an
overall projection, which was based on the number of incidents found in our sample with at least
one exception, based on all criteria tested. We are reporting actual findings for the rest of the
criteria tested.

Projections are shown in Table 2. Narrative interpretation of the results is presented below the
table.


81
     Scheaffer, Mendenhall, Ott, Elementary Survey Sampling, Fourth Edition (Chapter 5), Duxbury Press, c1990.


50         AUDIT REPORT 50501-0003-12
Table 2: Incident Response and Reporting Projections
                                                     95% Confidence
                                                        Interval      Coefficient
 Description of estimate for              Standard                        of        Population   Sample    Achieved
       tested criteria         Estimate     Error    Lower    Upper    Variation      Size        Size     Precision
 Incidents that were not           340     44.914      251      430         .132          823         75       11%
 reported to US-CERT
 within the required
 timeframe.
 Incidents with at least one       351     45.111      261      441         .128          823         75       11%
 exception in all criteria
 tested



Based on our sample results:
    ·    We estimate that 340 incidents (about 41 percent of the audit universe) were not reported
         to US-CERT within the required timeframe. We are 95 percent confident that between
         251 (30 percent) and 430 (52 percent) incidents in the audit universe are non-compliant
         with this criterion.
    ·    We estimate that 351 incidents (about 43 percent of the audit universe) had at least one
         exception in the tested criteria. We are 95 percent confident that between
         261 (32 percent) and 441 (54 percent) incidents in the audit universe were not handled in
         accordance with Departmental procedures.


2. POA&Ms

POA&Ms (Closed)

Universe:

The universe of POA&Ms consisted of 1,106 closed POA&Ms.

Sample Design:

We based our sample size on a 25 percent error rate and desired absolute precision of
+/-10 percent, at the 95 percent confidence level. With these assumptions, we calculated a
sample size of 69 POA&Ms for review, and selected them by choosing a simple random sample.

Results:

Results for all criteria are projected to the audit universe of 1,106 closed POA&Ms. Achieved
precision, relative to the audit universe, is reported for each criterion. The corresponding lower
and upper bounds of the 95 percent confidence interval are also included. All projections are




                                                                       AUDIT REPORT 50501-0003-12               51
made using the normal approximation to the binomial, as reflected in standard equations, for a
simple random sample.82

Projections are shown in Table 3. Narrative interpretation of the results can be found below the
table.

Table 3: POA&M (closed) Projections
                                                      95% Confidence
       Description of                                    Interval
     estimate for tested                                                Coefficient
          criteria                      Standard                            of        Population                 Achieved
                           Estimate       Error       Lower    Upper     Variation      Size       Sample Size   Precision
 POA&Ms                          176         47.542       81      271          .270        1106             69        9%
 with remediation
 actions that did not
 sufficiently address
 the identified
 weaknesses.


Based on our sample results, we estimate that 176 (about 16 percent of the universe) POA&Ms
in our universe had remediation actions that did not sufficiently address the identified
weaknesses. We are 95% confident that between 81 (7 percent) and 271 (25 percent) POA&Ms
in the audit universe are non-compliant with this criterion.

3. System / Contingency Planning

Universe:

Our universe consisted of 204 FISMA reportable systems for all agencies within USDA that
were reviewed as of August 25, 2012. Each system is to have a contingency plan that contains
very specific recovery information for the agency in the event of a disaster.

Sample Design:

We selected a simple random sample of 58 contingency plans for review. For a 95 percent
confidence level, this sample size was adequate for a range of potential outcomes: from a
0 percent exception rate, with a 5 percent upper limit, to a 30 percent error rate, with
+/-10 percent precision. Our simple random sample included at least one contingency plan from
each agency, so we did not use stratification.

Results:

The audit team reviewed the 58 system contingency plans selected in the sample. Results are
projected to the audit universe of 204 systems. Achieved precision, relative to the universe, is
reported for each criterion. The corresponding lower and upper bounds of the 95 percent

82
     Op. cit., Scheaffer et al. Chapter 4.


52          AUDIT REPORT 50501-0003-12
confidence interval are also included. For two criteria, the lower bound was lower than the
number of exceptions observed in the sample. All projections are made using the normal
approximation to the binomial, as reflected in standard equations, for a simple random sample.83

Projections are shown in the Table 4. Narrative interpretation of the results can be found below
the table.

Table 4: System / Contingency Planning Projections
                                                      95% Confidence
                                                         Interval            Coefficient
     Description of estimate              Standard                               of        Population   Sample    Achieved
       for tested criteria     Estimate     Error    Lower     Upper          Variation       Size       Size     Precision
 Systems that did not                28      7.882       12            44           .280          204        58         8%
 have evidence of CP
 testing.
 Systems that did not                32      8.276       15            48           .261          204        58         8%
 have evidence of
 ongoing testing.
 Systems that did not                11      5.063       3*            21           .480          204        58         5%
 meet the requirements to
 provide an alternate
 processing site.
* Actual number found.

Based on our sample results:
       ·     We estimate that 28 (about 14 percent of the universe) systems in our universe did not
             have evidence of Contingency Plan testing. We are 95 percent confident that between
             12 (6 percent) and 44 systems (22 percent) are non-compliant with this criterion.
       ·     We estimate that 32 (about 16 percent of the universe) systems in our universe did not
             have evidence of ongoing testing. We are 95 percent confident that between
             15 (7 percent) and 48 systems (24 percent) are non-compliant with this criterion.
       ·     We estimate that 11 systems (about 5 percent of the universe) in our universe did not
             meet the requirements to provide an alternate processing site. We are 95 percent
             confident that between 3 (actual number found, which represents about 1.5 percent of the
             universe) and 21 systems (10 percent) are non-compliant with this criterion.




83
     Ibid.


                                                                            AUDIT REPORT 50501-0003-12            53
4. Non-contractor systems in CSAM

Universe:

Our universe consisted of 226 non-contractor systems found in CSAM that were operational and
FISMA-reportable. We excluded systems from two agencies included in the FISMA review –
the Agricultural Research Service and the Foreign Agricultural Service, as well as any OIG
systems. The two agencies in the FISMA review were excluded because we had already
reviewed 100 percent of those systems as part of the audit.

Sample Design:

We selected a simple random sample of 40 systems for review. The audit team expected to find
few errors. We based the sample size on an expected error rate of 15% and a desired precision
of +/-10% at the 95% confidence level.

Results:

The audit team reviewed all 40 systems selected in the sample and found none that were
misidentified. Based on this result, we are 95% confident that less than 7% of the systems in our
audit universe might be misidentified.

Auditors reviewed documentation and found 10 non-contractor systems with insufficient
interconnection documentation. Based on this sample result, we project that 57 systems in the
universe of 226 have this issue. We are 95% confident that between 28 and 85 non-contractor
systems may have insufficient documentation. The table below shows the parameters for this
projection:

                                             95% Confidence
   Description of                               Interval
 estimate for tested                                           Coefficient
      criteria                    Standard                         of        Population                 Achieved
                       Estimate     Error    Lower    Upper     Variation      Size       Sample Size   Precision
Systems with                 57     14.216       28       85          .252          226            40       13%
insufficient
interconnection
documentation




54      AUDIT REPORT 50501-0003-12
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
